<html>
<title> - THE BROADCAST INCENTIVE AUCTION: UPDATE ON REPACKING OPPORTUNITIES AND CHALLENGES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







 THE BROADCAST INCENTIVE AUCTION: UPDATE ON REPACKING OPPORTUNITIES AND
                               CHALLENGES

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 7, 2017

                               __________

                           Serial No. 115-53


      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-146                         WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






























                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                       Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIOT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
CHRIS COLLINS, New York              FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)
























  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     1
    Prepared statement...........................................     3
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     3
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     5
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, prepared statement........................    83

                               Witnesses

Scott Bergmann, Vice President, Regulatory Affairs, CTIA.........     8
    Prepared statement...........................................    10
    Answers to submitted questions...............................   122
Rebecca Murphy Thompson, General Counsel and Executive Vice 
  President, Competitive Carriers Association....................    26
    Prepared statement...........................................    28
    Answers to submitted questions...............................   124
Rick Kaplan, General Counsel and Executive Vice President, 
  National Association of Broadcasters...........................    41
    Prepared statement...........................................    43
    Answers to submitted questions...............................   128
Patrick Butler, CEO, America's Public Television Stations........    49
    Prepared statement...........................................    51
    Answers to submitted questions...............................   132
Lyn Plantinga, Vice President and General Manager, Newschannel 5 
  Network........................................................    56
    Prepared statement...........................................    58
Jim Tracy, CEO, Legacy Telecommunications, Inc., National 
  Association of Tower Erectors Chairman.........................    65
    Prepared statement...........................................    67

                           Submitted Material

Op-ed entitled, ``Something for Cellphone Users to Celebrate: The 
  FCC's Air Waives Auction Provides a Much-Needed Boost to Main 
  Street,'' by Billy Tauzin, Washington Times, May 7, 2017, 
  submitted by Mr. Long..........................................   112
Statement of Electronics Research, Incorporated, submitted by 
  Mrs. Blackburn.................................................   114
Statement of the LPTV Spectrum Rights Coalition, submitted by 
  Mrs. Blackburn.................................................   117
Press release from T-Mobile, August 16, 2017, submitted by Mrs. 
  Blackburn......................................................   120

 
THE BROADCAST INCENTIVE AUCTION: UPDATE ON REPACKING OPPORTUNITIES AND 
                               CHALLENGES

                              ----------                              


                      THURSDAY, SEPTEMBER 7, 2017

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 2123, Rayburn House Office Building, Hon. Marsha Blackburn 
(chairman of the subcommittee) presiding.
    Present: Representatives Blackburn, Lance, Shimkus, Latta, 
Guthrie, Kinzinger, Bilirakis, Johnson, Long, Flores, Brooks, 
Collins, Cramer, Walters, Costello, Walden (ex officio), Doyle, 
Welch, Clarke, Loebsack, Dingell, Eshoo, Engel, Butterfield, 
Matsui, McNerney, and Pallone (ex officio).
    Also Present: Representative Green.
    Staff Present: Elena Hernandez, Press Secretary; Zach 
Hunter, Director of Communications; Bijan Koohmaraie, Counsel, 
Digital Commerce and Consumer Protection; Lauren McCarty, 
Counsel, Communications and Technology; Alex Miller, Video 
Production Aide and Press Assistant; Dan Schneider, Press 
Secretary; Jennifer Sherman, Press Secretary; Evan Viau, 
Legislative Clerk, Communications and Technology; Hamlin Wade, 
Special Advisor, External Affairs; Jeff Carroll, Minority Staff 
Director; Alex Debianchi, Minority Telecom Fellow; David 
Goldman, Minority Chief Counsel, Communications and Technology; 
Jerry Leverich, Minority Counsel; Lori Maarbjerg, Minority FCC 
Detailee; Jessica Martinez, Minority Outreach and Member 
Services Coordinator; Dan Miller, Minority Policy Analyst; and 
Andrew Souvall, Minority Director of Communications, Outreach 
and Member Services.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. The Subcommittee on Communications and 
Technology will now come to order. And the chair recognizes 
herself for 5 minutes for an opening statement.
    And I do want to begin by welcoming everyone to the 
Communications and Technology Subcommittee with our hearing 
titled ``The Broadcast Incentive Auction: Update on Repacking 
Opportunities and Challenges.'' And I want to thank our 
witnesses for being here today. We appreciate having your 
perspective on this issue.
    Mobile connectivity has become an essential component of 
our everyday lives. Today, Americans are consuming more mobile 
content than ever before. Since 2010, data traffic delivered 
over wireless networks has increased by a factor of 35. Last 
year alone, Americans have generated over 13 trillion megabytes 
of wireless data traffic. That is the equivalent of 1.5 million 
years of streaming HD video. Now, that is what is running over 
our networks.
    All of this consumption has led to a pressing need for more 
mobile broadband spectrum. This committee, along with the FCC, 
NTIA, and the private sector, has worked to identify 
opportunities to feed the spectrum pipeline. The broadcast 
incentive auction presented a rare opportunity to make a 
significant block of spectrum available for mobile broadband 
use.
    After years of discussion on auction design and 
preparation, the first two phases of the auction have been 
successfully completed. Earlier this year, the reverse and 
forward auctions concluded, raising $19.8 billion in revenues, 
the second largest auction in FCC history, and contributing 
over $7 billion to Federal deficit reduction.
    We have now begun the third phase of the auction. This is 
the repack. In crafting legislation that authorized the 
auction, this committee worked very hard to strike a balance 
between the needs of broadcasters and the consumer demand for 
wireless service. Discussions involving stakeholders from all 
sides of the auction resulted in agreement on the postauction 
transition timeline and budget. The FCC has done its part to 
carry out the first part of the auction and set the parameters 
for the repack. It is now time for industry to work together to 
ensure that this agreement is honored and that the repack is 
completed on time.
    This morning, we will hear about the ongoing challenges 
with completing this phase of the auction. Our witnesses will 
discuss outstanding issues with relocating broadcasters to new 
channels as well as the importance of clearing the 600 
megahertz band as soon as possible. We will also examine 
unanswered questions surrounding low-power television and 
translator stations, an issue that is very important to many 
members on this committee.
    Hurricane Harvey has reminded each and every one of us--and 
now Hurricane Irma, which is pressing down on the U.S. We all 
know how important broadcasters and wireless providers are in 
times of emergency. Preserving access to over-the-air 
television while also meeting consumer needs for mobile 
broadband is a goal that we all share and a problem we need to 
all resolve together.
    Today's panel will inform us on the challenges and the 
opportunities of the latest effort to advance this goal. Thank 
you, and I look forward to the testimony from our witnesses.
    And at this time, I yield to the gentleman from 
Pennsylvania, who is the recent father of the groom. And I know 
his opening statement is going to be as beautifully delivered 
as his toast to the happy couple.
    Mr. Doyle, you are recognized for 5 minutes.
    [The prepared statement of Mrs. Blackburn follows:]

            The prepared statement of Hon. Marsha Blackburn

    The Subcommittee on Communications and Technology will now 
come to order. The Chair now recognizes herself for five 
minutes for an opening statement.
    Welcome everyone to the Communications and Technology 
Subcommittee's hearing titled: ``The Broadcast Incentive 
Auction: Update on Repacking Opportunities and Challenges.'' 
Thank you to the witnesses for appearing today to offer your 
perspective on this important issue.
    Mobile connectivity has become an essential component of 
our everyday lives. Today, Americans are consuming more mobile 
content than ever before. Since 2010, data traffic delivered 
over wireless networks has increased by a factor of 35. Last 
year alone, Americans generated over 13 trillion megabytes of 
wireless data traffic. That is the equivalent of 1.5 million 
years of streaming HD video. All of this consumption has led to 
a pressing need for more mobile broadband spectrum.
    This committee, along with the FCC, NTIA, and the private 
sector, has worked to identify opportunities to feed the 
spectrum pipeline. The broadcast incentive auction presented a 
rare opportunity to make a significant block of spectrum 
available for mobile broadband use. After years of discussion 
on auction design and preparation, the first two phases of the 
auction have been successfully completed. Earlier this year, 
the reverse and forward auctions concluded, raising $19.8 
billion in revenues--the second largest auction in FCC 
history--and contributing over $7 billion to federal deficit 
reduction.
    We have now begun the third phase of the auction--the 
repack. In crafting legislation that authorized the auction, 
this committee worked very hard to strike a balance between the 
needs of broadcasters and the consumer demand for wireless 
service. Discussions involving stakeholders from all sides of 
the auction resulted in agreement on the post-auction 
transition timeline and budget. The FCC has done its part to 
carry out the first part of the auction and set parameters for 
the repack. It is now time for industry to work together to 
ensure that this agreement is honored and that the repack is 
completed on time.
    This morning we will hear about the ongoing challenges with 
completing this phase of the auction. Our witnesses will 
discuss outstanding issues with relocating broadcasters to new 
channels as well as the importance of clearing the 600 
megahertz band as soon as possible. We will also examine 
unanswered questions surrounding low power television and 
translator stations--an issue very important to many members of 
this committee.
    Hurricane Harvey has reminded us all how important 
broadcasters and wireless providers are in times of emergency. 
Preserving access to over-the-air television while also meeting 
consumer demand for mobile broadband is a goal we all share. 
Today's panel will inform us on challenges and opportunities in 
the latest effort to advance this goal.
    Thank you and I look forward to the testimony of our 
witnesses.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you very much, Madam Chair, and I thank 
you for holding this hearing. And thank you to the witnesses 
for appearing before us.
    I want to start by saying--and I think all of us up here 
feel the same way--that our thoughts and prayers go out to 
those affected by Hurricane Harvey in Houston and those folks 
that are in the path of Irma.
    But, you know, in tragedy and loss, we also hear stories of 
perseverance and fortitude. Broadcasters in Houston have been 
on the air nonstop since Harvey, doing everything from 
coordinating food drops and rescues to setting up fundraisers 
to help with the recovery.
    And, similarly, cellular networks have largely continued to 
function in the region. I know my good friend Frank Pallone has 
been doing a lot of work on this issue since Sandy, and his 
efforts, as well as those of the wireless carriers and the FCC, 
has paid off. The vast majority of the region maintained 
cellular service, which enabled critical lifesaving operations, 
as well as coordinating communications between families and 
loved ones and first responders.
    So I am happy to see the progress that these industries 
have made, but we need to continue to improve. And with Irma on 
the way, we may be tested again all too soon. That is one 
reason this hearing is so important. Spectrum is at the heart 
of both broadcast and cellular technologies, and it is critical 
that we get this repack right because a misstep could disrupt 
both technologies.
    Early reports from the FCC suggest that the 1.75 billion 
repacking fund will fall short in getting broadcasters 
relocated. I and many of my colleagues support Ranking Member 
Pallone's Viewer Protection Act, which sets aside an additional 
$1 billion for broadcaster relocation and authorizes $90 
million to conduct outreach to consumers to inform and educate 
them about the transition.
    And while I am interested in holding broadcasters harmless 
through this process, I am concerned by some allegations we are 
hearing that some broadcasters may try to use this process to 
slow the repack or to use the process for their own gain. I 
encourage the FCC to take a zero-tolerance approach to this 
kind of activity.
    I look forward to the hearing. And at this time, Madam 
Chair, I would like to yield the remaining time I have to my 
friend Gene Green.
    Mrs. Blackburn. Mr. Green is recognized.
    Mr. Green. Thank you, Mr. Chairman and to the members of 
the committee. At one time, I did serve on the telecom 
subcommittee. But I want to thank my friend Mike Doyle.
    For 7 days, the Texas Gulf Coast was hammered by Hurricane 
Harvey, bringing destruction beyond anything witnessed in 
living memory in our State. The storm dropped 4 feet of rain on 
greater Houston. Over 100,000 homes and residences were flooded 
in Harris County alone.
    Currently, 85,000 Texans are staying in shelters and 
temporary FEMA housing. Authorities believe at least 70 
Americans were killed due to Harvey, and that number will 
continue to rise.
    During the worst of Harvey, the people of Houston and 
Harris County were able to rely on the dedication of our local 
TV and radio broadcasters to provide critical lifesaving 
information, including emergency flash flood warnings, live 
coverage of our local officials, and first responders, and up-
to-the-minute updates on conditions in our neighborhood and 
roads. This dedication exhibited by our local CBS affiliate, 
which I was at the week before Harvey, KHOU, channel 11, which 
continued airing emergency coverage of Harvey while water 
filled their first floor.
    I also thank the hard work of the dedicated and of our 
local communication workers, wireless providers, who maintained 
our wireless communication network throughout Harvey. I am 
happy to say that 99 percent of the cell towers in Harris 
County are currently operational.
    As our committee examines the impact of the broadcaster 
spectrum and repack, I ask that we take into account the value 
that our local broadcasters provide during emergencies like 
Harvey, and ensure that broadcasters will be made whole and so 
they can be at the next emergency.
    In Houston, we typically get a tropical storm, a hurricane 
about every 7 years, so we know we are going to be there. They 
are not moving Houston, but we will end that.
    But anyway, I want to thank my good friend for yielding to 
me, and I will yield back to Mike. Thank you.
    Mr. Doyle. I yield back.
    Mrs. Blackburn. The gentleman yields back.
    And at this time, I recognize the chairman of the full 
committee, Mr. Walden, for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you very much, Madam Chair. And I 
appreciate our witnesses who are here today for this really 
important hearing.
    And I also join those who are keeping you in our thoughts 
and prayers, all those affected by the hurricanes and the 
flooding, Harvey, Irma. I would add to it a couple names you 
are not familiar with: Chetco, Eagle Creek, Indian Creek, among 
others, which are the fires that are ravaging the northwest, 
including just a few miles from where I live.
    Over the weekend, the Eagle Creek fire took off and has now 
burned 33,000 acres. I had embers on my deck 17 miles away. 
Freeway systems closed. The rail lines are closed. And even the 
mighty Columbia River is not allowing barge traffic at this 
time. And this is in the national Columbia River scenic area, 
and so it seems like every region of our country is affected.
    And the comments made by my colleagues, they are helping 
out every step of the way with the citizens, our brave first 
responders, the firefighters, the EMTs and all, but also our 
broadcasters, public and commercial. Cell towers are staying up 
and operating, emergency communications are at work. Our ham 
radio operators, of which I am one, are very active in all this 
as well.
    And it speaks to the importance of the hearing today to 
make sure that we have the most vibrant, modern communications 
platforms in the world and that they continue to operate and 
provide emergency and day-to-day communication to our citizens.
    In a district such as mine with this enormous nature of it 
and these threats that we face, it is also important to realize 
it is very mountainous, and that means translators matter. And 
I know that is an issue that is on my mind because we have a 
lot of consumers out in the rural areas whose only link for 
television and the emergency communications that comes with 
that is off a translator in a deep valley or somewhere else. So 
we have got to figure that piece of this out. It wasn't part of 
the original package, but somehow in here we have got to figure 
a way through that one as well.
    The legislation that brings us here today started back in 
2012 with the Middle Class Tax Relief and Job Creation Act 
under the FCC. Our whole goal then was to take this very 
important spectrum and make it available for its highest and 
best purpose and use and drive innovation and help try to find 
a spectrum that would meet the insatiable demand of all of us 
who are consumers to pull up all of our devices, like many of 
you probably are wishing you were doing right now instead of 
listening to me, and watch video, among other things.
    And so it is important that we did that. We raised $19.8 
billion, the government. We funded FirstNet, or at least the 
first tranche of FirstNet, for the interoperable public safety 
broadband network called for by the 9/11 Commission, and we are 
continuing our oversight over that.
    But today, we need to look at this repack. That is the next 
phase. I said all along we would do that at the appropriate 
time to see if the right amount of funds are there to 
accomplish the goal. We didn't know. We still don't know for 
sure.
    We are also concerned about the timelines, the number 
literally of engineers that can do repacks. We have heard about 
FM stations that may be affected that we didn't know--really 
think through that they may have an affect here.
    And so we have got a lot of work on our hands. We know 
that. We want to hear from each of you. That is why it is such 
a diverse panel, because we know how much is at stake. And so 
thank you for being here. Thank you for working with us over 
the last 5 years. And now we enter the final phase. We want to 
make sure we get this phase right as well.
    So, Madam Chair, I thank you for your leadership on this 
issue and that of the committee on both sides of the aisle, and 
I look forward to hearing from our witnesses.
    Mrs. Blackburn. The gentleman yields back.
    Is there anyone on our side seeking the balance of his 
time?
    No one is seeking the time. And I think it expresses the 
importance of this hearing coast to coast. You are looking at 
disasters and the importance of timely information and 
individuals being able to be informed.
    At this time, in Mr. Pallone's absence, I recognize Ms. 
Matsui for 5 minutes. The gentlelady is recognized.

OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you very much, Madam Chairman.
    Thank you for yielding. It is important that our committee, 
following the last spectrum incentive auction, is monitoring 
the process to ensure a smooth transition for broadcast 
stations.
    The information broadcasters share is of critical 
importance to my constituents' daily lives. As I watched the 
destruction of Hurricane Harvey and the threat and the 
destruction already posed by Irma, I think of the Sacramento 
area and its extreme risk of natural disasters like flood and 
wildfire.
    We rely upon our local news for accurate, local information 
during times of crisis. Spectrum is the invisible 
infrastructure of the 21st century, and the most recent 
spectrum auction was a success because of the participation of 
dozens of carriers across the country.
    We need to continue to encourage innovation that keeps us 
moving forward, paving the way for things like 5G, which we are 
leading on with new public-private partnership in Sacramento. 
Wireless is the way forward, but we must also ensure that our 
broadcasters have the resources they need to make sure that 
everyone has access to the best information, both globally and 
locally.
    Thank you, and I yield to the gentleman next to me.
    Mrs. Blackburn. OK.
    Mrs. Blackburn. OK. The gentlelady is yielding to Mr. 
McNerney. You are recognized.
    Mr. McNerney. Well, I thank my friend from California.
    I want to follow up on the ranking member's remarks. We 
have a spectrum. The 39 months is just an estimate. We really 
don't know exactly how much time, but we have to be careful we 
don't allow foot dragging to move that period longer and 
longer, because it is going to cost money.
    And I am also very concerned about the merger that we are--
that is sort of hanging over our head between Sinclair and--at 
any rate, the problem is that when we go there, we are going to 
be having a lot of concentration of spectrum and broadcast to 
one or two organizations that will enter many, many homes and 
will change the national dialogue. We really need diversity, so 
it is important that we continue to have diversity. It is 
important that we make sure that the spectrum allocation is 
finished on time.
    With that, I yield back.
    Mrs. Blackburn. The gentleman yields back.
    And the gentlelady yields back. And we were waiting for Mr. 
Pallone, but he is not here, has not arrived.
    So this concludes the member opening statements. I would 
like to remind all members that pursuant to committee rules, 
their statements will be made a part of the record.
    We want to thank our witnesses for being here today and for 
taking the time to come before the subcommittee. And you are 
each going to have the opportunity to deliver your opening 
statement. You will be followed with a round of questions by 
members. We look forward to your answers.
    And our witness panel today includes and we are welcoming 
Scott Bergmann, who is the Vice President of Regulatory Affairs 
at CTIA. Welcome back. Rebecca Murphy Thompson, who is the 
General Counsel and Executive VP of the Competitive Carriers 
Association; Rick Kaplan, who is the General Counsel and 
Executive VP of the National Association of Broadcasters; 
Patrick Butler, who is the CEO of America's Public Television 
Stations. Go Vols. Lyn Plantinga, who is the VP and General 
Manager of NewsChannel 5 Network in Nashville, Tennessee. And 
she does not say ``go Vols.'' She says ``go Vandy.'' And Jim 
Tracy, who is the Chairman of the National Association of Tower 
Erectors.
    We appreciate that you are each here today. And we 
especially appreciate your preparing your testimony and 
submitting that in advance. And we will begin the panel today 
with you, Mr. Bergmann. You are recognized for 5 minutes.

   STATEMENTS OF SCOTT BERGMANN, VICE PRESIDENT, REGULATORY 
  AFFAIRS, CTIA; REBECCA MURPHY THOMPSON, GENERAL COUNSEL AND 
  EXECUTIVE VICE PRESIDENT, COMPETITIVE CARRIERS ASSOCIATION; 
  RICK KAPLAN, GENERAL COUNSEL AND EXECUTIVE VICE PRESIDENT, 
  NATIONAL ASSOCIATION OF BROADCASTERS; PATRICK BUTLER, CEO, 
   AMERICA'S PUBLIC TELEVISION STATIONS; LYN PLANTINGA, VICE 
 PRESIDENT AND GENERAL MANAGER, NEWSCHANNEL 5 NETWORK; AND JIM 
     TRACY, CEO, LEGACY TELECOMMUNICATIONS, INC., NATIONAL 
             ASSOCIATION OF TOWER ERECTORS CHAIRMAN

                  STATEMENT OF SCOTT BERGMANN

    Mr. Bergmann. Thank you, Chairman Blackburn, Ranking Member 
Doyle, and members of the subcommittee. On behalf of CTIA, 
thank you for the opportunity to testify about the incentive 
auction and the postauction transition.
    Because of this committee's leadership, the incentive 
auction was a tremendous success, the second largest spectrum 
auction by revenue raised and spectrum reallocated. It was a 
win for broadcasters, wireless providers, and American 
consumers.
    CTIA and its members strongly support the FCC's transition 
plan which provides a flexible roadmap. We support a fully 
funded repack that ensures broadcasters are made whole for 
their reasonable costs. We appreciate this committee's 
oversight and urge it to maintain the 39-month timeline.
    Delay would harm deployment of cutting-edge mobile wireless 
services, especially in rural areas, and could undermine future 
spectrum auctions. This first-of-its-kind auction has 
revolutionized the way that we repurpose spectrum to meet the 
Nation's exploding mobile needs. It freed up 84 megahertz of 
spectrum. It grossed $19.8 billion. Fifty different parties won 
wireless licenses, including nontraditional and rural 
providers. And 175 broadcast stations were winners and will 
receive almost $10 billion in proceeds.
    This spectrum will generate substantial economic benefits. 
The 70 megahertz of license spectrum will add more than 700,000 
new jobs and as much as $22 billion to the GDP, so it is 
critical that this transition be accomplished smoothly, 
efficiently, and within the 39-month timeline.
    This low-band spectrum will enable new wireless services 
across the country, particularly in rural areas, which has been 
a topic of great interest to this committee. And winning 
bidders are already putting this spectrum to use.
    T-Mobile, the largest winner, launched operations in 
Wyoming and Maine just 2 months after receiving licenses. This 
year alone, the carrier will add new sites in Oregon, Texas, 
Kansas, Oklahoma, New Mexico, North Carolina, North Dakota, 
Pennsylvania, Virginia, and Washington.
    To realize these benefits, it is important that we hold to 
the 39-month timeline. After carefully considering an extensive 
record from various stakeholders, the FCC developed a plan that 
provides flexibility for broadcasters, minimizes disruption for 
viewers, and provides certainty to wireless providers.
    The plan features a 39-month transition, which was upheld 
by the courts, and 10 separate phases, eliminating the need for 
all stations to obtain equipment or schedule a tower at the 
same time. The FCC's plan is not static. It established a 
process for broadcasters to extend their deadlines if 
necessary. And the FCC already has the authority to address 
potential timing problems, making legislative changes 
unnecessary. But significant delay would risk world buildout 
and 5G deployment and would be unfair to forward auction 
winners that invested nearly $20 billion.
    Delay could also negatively impact future auctions. If the 
government shows a willingness to retroactively change the 
rules, bidders in future auctions will build less, causing a 
decrease in spectrum prices and availability.
    Moving forward, CTIA's members are doing all they can to be 
part of the solution. Our members are engaging with 
broadcasters to address repacking challenges, such as funding 
relocation costs for rural public television stations and low-
power TV stations. They are working to ensure that equipment 
like antennas is available and are doing continuous outreach to 
translator and wireless microphone communities. CTIA expects 
this close collaboration and financial investment will continue 
throughout the repack.
    Finally, I would like to acknowledge the hardship from 
Hurricane Harvey, particularly in the district of Congressman 
Olson, and the wireless industry' s efforts to maintain service 
for millions of Americans across Texas and Louisiana.
    CTIA commends this committee for its ongoing interest in 
wireless resiliency. Ranking Member Pallone has been intensely 
focused on this topic since Superstorm Sandy. Last year, 
wireless carriers adopted a network resiliency framework to 
improve resiliency during emergencies and natural disasters.
    Using this framework was successful. Wireless companies 
readied backup generators, prepositioned fuel, educated 
consumers, and brought in emergency response teams. Even as 
traffic spiked, wireless services were there when people needed 
them most. More than 95 percent of cell sites remained working 
throughout the storm. More than 300 wireless emergency alerts 
were sent to warn people about tornados, flooding, and other 
dangers. More than 96,000 calls were delivered to 911, and 
millions of people used wireless to call, text, gather and 
share information, and communicate with loved ones.
    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    [The prepared statement of Mr. Bergmann follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Mrs. Blackburn. The gentleman yields back.
    Ms. Murphy Thompson, you are recognized, 5 minutes.

              STATEMENT OF REBECCA MURPHY THOMPSON

    Ms. Murphy Thompson. Thank you.
    Chairman Blackburn, Ranking Member Doyle, Ranking Member 
Pallone, and members of the subcommittee, I am honored to 
testify about the immense opportunities compared to the minimal 
challenges presented by repacking the 600 megahertz band for 
mobile broadband.
    CCA represents nearly 100 wireless carriers that serve 
urban centers and most rural parts of our country, along with 
150 vendors and suppliers. The vast majority of CCA members are 
small businesses serving rural areas.
    Chairman Blackburn, I appreciate the subcommittee's keen 
focus on prioritizing access and expansion of mobile broadband 
service and agree that an efficient and safe repacking process 
is a sound way to achieve this mutual goal.
    For these reasons, let me commend this committee for 
crafting legislation that gave life to the historic incentive 
auction, which unleashed 84 megahertz of low-band spectrum for 
mobile broadband use and garnered $20 billion in gross 
revenues, which includes $10 billion in payments to 
broadcasters and $7 billion for deficit reduction. I would call 
that a good day at the office.
    The repacking process represents the third and final stage 
of the incentive auction. CCA carrier members represent the 
majority of the winning bidders in the auction who spent over 
$15 billion to acquire nearly 2,400 licenses.
    CCA's carriers were key to the auction's success and are 
anxious to deploy the spectrum to provide the latest mobile 
broadband services to consumers throughout the United States. 
The ongoing repack is not about wireless operators versus 
broadcasters; rather, collaborative work will expand access to 
mobile broadband, increase competition, and meet our country's 
need for economic growth and creation. We cannot afford to 
wait.
    A persistent digital divide continues to plague certain 
parts of the United States, leaving rural communities trailing 
behind their urban counterparts on the road to 5G. The 600 
megahertz spectrum is critical to bridge this digital divide 
and is tailor made for serving rural areas with excellent 
propagation characteristics.
    This is why so many of CCA's members showed up, bid, and 
won spectrum in the auction. This is also why CCA members have 
continuously worked with broadcasters, tower crews, and other 
industry stakeholders to transition the spectrum.
    With continued congressional oversight and FCC diligence, 
CCA is confident that industry can safely and efficiently 
complete the transition within the 39-month timeline 
established by the FCC, based on congressional statute and 
upheld by the court.
    The committee and the FCC have committed that broadcasters 
will not go dark as a result of the transition period. The FCC 
antenna task force also has carefully balanced the need to 
clear the 600 megahertz spectrum for mobile broadband use while 
protecting consumers. This included an efficient waiver process 
for any station that is unable to transition due to 
circumstances out of its control.
    CCA supports these goals and urges Congress and the 
Commission to stay the course and maintain the 39-month 
timeline. This ensures carriers' investments are realized and 
consumers receive the most advanced services.
    With this clarity in hand, CCA members ask that this 
committee reject any effort to delay the transition. As noted, 
CCA members spend significant capital in the auction with the 
expectation of offering consumer innovative services. Altering 
timelines now post auction could leave significant resources 
stranded, which would inject uncertainty into future auctions.
    In addition, the proposed Sinclair acquisition of Tribune 
could significantly delay the repacking effort as a result of 
its dominant market share and should be denied. Withholding 
spectrum in rural areas will deepen the digital divide and 
leaving consumers who could benefit most from the next 
generation technology without mobile broadband. As we say at 
CCA, wireless carriers must keep up with their Gs as networks 
move from 3G to 4G and soon 5G.
    Congress provided $1.75 billion for the repacking process. 
Initial expenditure estimates appear to exceed that amount. If 
additional financial resources are needed, CCA stands ready 
with Congress to make sure that adequate funding is available 
to complete the repack process within the 39-month timeline.
    In closing, reallocating the 600 megahertz spectrum for 
mobile broadband use creates jobs and presents a multitude of 
consumer opportunities. We must stick to this well-established, 
consistently upheld 30-month timeline and allow the commission 
to use its existing waiver process to resolve challenges that 
are outside our broadcasters' control if they arise. Once 
repacked, 600 megahertz spectrum can immediately provide 
advanced services to rural Americans and be the foundation for 
5G.
    Thank you for the opportunity to testify, and I welcome 
your questions.
    [The prepared statement of Ms. Murphy Thompson follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Kaplan, 5 minutes.

                    STATEMENT OF RICK KAPLAN

    Mr. Kaplan. Good morning, Chairman Blackburn, Ranking 
Members Pallone and Doyle, and members of the subcommittee. My 
name is Rick Kaplan, and I am the general counsel of the 
National Association of Broadcasters.
    On behalf of NAB, I appreciate this opportunity to discuss 
the unprecedented repacking of nearly 1,000 TV stations as part 
of the broadcast TV incentive auction. NAB has worked closely 
with this subcommittee on the legislation authorizing the 
incentive auction and its subsequent implementation.
    One of the fundamental elements underpinning our 
collaboration has been Congress' commitment that broadcasters 
and their viewers would be held harmless following the auction. 
In practice, this means that nonparticipating broadcasters 
would remain on the air, serve the same viewers after the 
auction as they did before, and not be required to incur costs 
when being assigned new frequencies.
    At the outset, it might be helpful for me to clear up any 
possible misconceptions about what broadcasters are and are not 
asking from Congress. First, broadcasters are not seeking any 
money from Congress beyond what makes us whole. We are not and 
have never sought to subsidize upgrades beyond our current 
operations.
    Second, broadcasters are not proposing that Congress resets 
the FCC's current 39-month repacking window. That framework has 
been established and the transition is underway. We are 
seeking, however, for Congress to make clear that no individual 
station should be forced off the air or have a significant 
reduction in service if circumstances beyond its control 
prevent the station's transition at its assigned time.
    Third, now is the time for congressional action. For that 
reason, NAB greatly appreciates this subcommittee's willingness 
to hold this hearing and its ongoing consideration of 
legislative next steps.
    Stations are well into the transition process with the 
first group required to move to their new channels just over 1 
year from now. They are already incurring substantial costs and 
have no idea whether they are going to be fully reimbursed.
    In addition, stations must understand their options today 
should their circumstances beyond their control prevent them 
from meeting their assigned transition deadlines. Broadcasters 
have every incentive to work towards a swift transition. There 
is simply no benefit to our industry if there are unnecessary 
delays.
    For that reason, NAB is committed to doing our part to 
ensure that this first-of-its-kind auction is truly a success. 
We agree with CTIA that the incentive auction's failure would 
be crippling for future auctions. And nothing could be worse 
for the auction's precedential value than if the number-one 
takeaway is that incumbents were left holding the bag.
    However, the outstanding issues with the incentive auction 
demand Congress' attention, not only because their resolution 
comports with the spirit of the Spectrum Act, but also because 
of the critical role broadcasters play in serving communities 
across the country. It should not take a devastating event such 
as Hurricane Harvey to remind us just how indispensable 
broadcast TV and radio stations are to our Nation's safety and 
well-being.
    For communities big and small, local broadcasters and 
national broadcast networks combine to provide critical news 
and information to keep the public educated and engaged. This 
is precisely why CTIA's and CCA's wireless emergency alerts 
instruct consumers to, quote, check local media when alerting 
communities to a matter of urgency.
    It is also important that Congress take meaningful steps to 
protect those broadcasters who had no stake in the auction but 
are now, it is likely, collateral damage. Hundreds of FM radio 
stations that are colocated with repack TV stations may be 
saddled with new costs and significant disruptions. Low-power 
TV and translators are also struggling to maintain their 
ability to serve urban and rural audiences.
    NAB continues to believe that with congressional FCC 
leadership the repack can be a success. To date, Chairman Pai 
has more than ably guided the commission through a repacking 
process that received little attention before he assumed the 
agency's helm.
    We are grateful to bipartisan congressional leaders for 
their attention to this issue and to Ranking Member Pallone and 
his cosponsors for their proposed legislative solution. We look 
forward to continuing to work with you to help this transition 
proceed as smoothly as possible for all stakeholders, and most 
critically, the viewers and listeners who rely on our signals 
every day.
    Thank you again for the opportunity to discuss these 
issues, and I look forward to your questions.
    [The prepared statement of Mr. Kaplan follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mrs. Blackburn. Mr. Butler, you are recognized for 5 
minutes.

                  STATEMENT OF PATRICK BUTLER

    Mr. Butler. Thank you, Madam Chair. As the representative 
of----
    Mrs. Blackburn. Microphone, please.
    Mr. Butler. Got it. OK. Sorry.
    Thank you, Madam Chairman.
    As the representative of 170 public television licensees 
throughout America, let me focus my testimony today on the need 
for more funds to complete the repacking of our channels in the 
aftermath of the spectrum auction. That need is real, and for 
public television stations in particular, those funds are 
essential to our continued service.
    Thanks to the advocacy of this subcommittee, Congress 
approved a $1.75 billion postauction transition fund in the 
original spectrum law. The FCC has now determined that 
broadcasters will need at least another $400 million to be held 
harmless from the financial effects of this transition as the 
law requires.
    For the 149 public television stations being repacked, the 
funding deficiency is more than $50 million. This is in 
addition to the roughly $270 million, which repacking public 
stations are scheduled to receive from the original transition 
fund.
    These are all staggering, overwhelming figures for public 
television stations operating as local nonprofit educational 
institutions, and we must rely on the good faith of the 
Congress to hold us harmless in this transition as promised.
    Kentucky Educational Television alone must reconfigure 16 
transmitters to accommodate the postauction repacking 
requirements. KET, a State agency, needs $21 million to comply 
with this mandate of the Federal Government, roughly the 
equivalent of a 4 years' operating budget.
    Other public television stations, whether licensed to 
States, universities, local school districts, or nonprofit 
community foundations are all in the same boat. Without your 
help, that boat will capsize, and with it will go the essential 
services in education, public safety, and civic leadership on 
which your constituents depend.
    America's Public Television Station supported the spectrum 
auction process from the beginning, and we are committed to 
completing this repacking transition as soon as possible.
    Dozens of public stations entered the auction and 26 
licensees emerged with commitments to surrender their spectrum, 
share their spectrum, move from UHF to VHF frequencies or from 
high-V to low-V frequencies. With our friends at CTIA, the 
wireless association, we conducted a pilot project in southern 
California to demonstrate how spectrum could be dynamically 
shared.
    We also engineered an agreement with our friends at T-
Mobile to cover the cost of repacking 384 public television 
translators that carry our signal to almost 38 million viewers, 
many of them in rural America.
    But none of this should suggest that we are capable of 
bearing an additional $50 million repacking burden on our own. 
Incurring such an extraordinary expense would devastate the 
very programs and services that make public television so 
valued by so many millions of Americans across the country and 
across the political spectrum.
    For 54 percent of American families, public television is 
all the preschool education their kids get. PBS LearningMedia 
helps almost 2 million educators teach 40 million K through 12 
students with more than 120,000 curriculum-aligned interactive 
digital learning objects created from the best of public 
television, the Library of Congress, the National Archives, 
NASA, and more.
    Our mission of civic leadership encompasses serving as the 
C-SPAN of State governments hosting hundreds of candidate 
debates at every level of the ballot and producing thousands of 
hours of regularly scheduled programs on local public affairs, 
history, and culture every year.
    And as we saw this past week, the public safety mission of 
local public television stations literally saves lives. The PBS 
Warning Alert and Response Network routed more than 400 
wireless emergency alerts to the cell phones of people in the 
path of Hurricane Harvey in less than a week. And a public 
safety data casting network created by Houston Public Media and 
local emergency agencies enabled first responders to monitor 
flooding conditions by sending live video directly to the 
dashboards of emergency vehicles all across the vast Houston 
metropolitan area.
    Public television's public safety data casting has been so 
successful in pilot projects around the country that the U.S. 
Department of Homeland Security has entered into a formal 
agreement with us to promote this capability to public safety 
agencies throughout the country.
    So in conclusion, the sooner we can get these additional 
funds, the more likely it is that public television stations 
can repack on schedule, avoid going dark, and continue the 
essential services we provide to 97 percent of the American 
people.
    Congress is our only hope, and this subcommittee, once 
again, has a critical role to play in assuring that the last 
act of the auction process is as smooth and successful as the 
first. Thank you.
    [The prepared statement of Mr. Butler follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
      Mrs. Blackburn. Ms. Plantinga, 5 minutes.

                   STATEMENT OF LYN PLANTINGA

    Ms. Plantinga. Good morning, Chairman Blackburn, Ranking 
Members Pallone and Doyle, and members of the subcommittee. 
Thank you for inviting me here today. My name is Lyn Plantinga. 
I am the general manager of NewsChannel 5 in Nashville, 
Tennessee, where I oversee day-to-day operations of 149 
employees.
    NewsChannel 5 is proud to be a part of the E.W. Scripps 
Company and its 33 television stations across 24 markets 
nationwide. As the number-one rated station in Nashville, 
NewsChannel 5 is dedicated to practicing the Scripps' motto: 
Give light and the people will find their own way. We carry out 
this mission by telling the stories of people who often do not 
have a voice and ensuring accountability for the actions of the 
powerful.
    Our commitment to community through coverage of breaking 
news, severe weather, in-depth investigations, and civic 
engagement helps make Nashville a better place to live and to 
work.
    Behind the newsroom cameras, before the Doppler radar image 
or the live feed from our news helicopter can reach our 
viewers, NewsChannel 5 maintains and operates a sophisticated 
technical infrastructure to originate and deliver our free 
broadcast signal over the air to viewers in middle Tennessee 
and southern Kentucky.
    In the fall of 2019, this infrastructure will be tested 
when NewsChannel 5 is required to move channels to accommodate 
an auction of broadcast spectrum that affords our station and 
its viewers no benefit. At a minimum, we will expend time and 
resources to significantly reconfigure our operations and 
educate over-the-air viewers to rescan their television so they 
can find us on our new channel. In the worst case, we will face 
out-of-pocket costs and viewer disruption that undermines our 
ability to serve our community.
    To put what is an otherwise academic problem in real terms, 
NewsChannel 5's move will require the purchase and installation 
of a new transmitter, new primary antenna, and an interim 
antenna. We estimate that these equipment and labor costs will 
total $4.1 million for our station alone. While this is a high 
number, it is not atypical. Of Scripps' 33 local television 
stations, 17 of them will be moving channels, including those 
in Tampa, Buffalo, and Detroit at an estimated cost of $55 
million.
    More people tune to NewsChannel 5 for news and information 
than to any other station in the State of Tennessee. We have 
earned this position in the market through dependable coverage, 
quality journalism, and investing in our team and tools so we 
can raise the bar every day.
    Local broadcasters like us who drew the proverbial short 
straw and face this channel change upheaval, through no fault 
of their own, should certainly not be required to drain 
additional resources from their coverage by footing the bill 
from a repack for which we yielded no benefit.
    The logistics of our channel reassignment also prevents 
significant challenges in completing our move in the timeframe 
that is prescribed by the FCC. Though branded NewsChannel 5, we 
will actually move from channel 25 to 36 in Nashville.
    Over the course of only 6 weeks, we will need to complete 
our work and coordinate with two other local broadcasters, the 
station that occupies the channel we are moving to and the 
station that will move into the channel that we currently 
occupy. There is little margin for error, and this will all be 
happening while five additional broadcasters perform similar 
tower work in Nashville.
    We can foresee these difficulties because NewsChannel 5 has 
been down this road before. Our three previous channel moves 
during the digital transition proved extremely difficult 
because of challenges in scheduling the individual components 
of the channel change, getting equipment delivered, and work 
done on time.
    Weather also played a significant role. Heavy rain can 
prevent a tower crew from climbing, especially on a tower as 
tall as ours at nearly 1,400 feet. Several days of rain or more 
severe weather can close the window to complete a project. This 
repack's compacted timeline and the market pressures of so many 
stations changing channels at the same time adds to the 
difficulty.
    In conclusion, I really want to emphasize our shared goal 
for a successful transition that accomplishes Congress' 
objective of deploying additional wireless services. However, 
NewsChannel 5 asks that Congress take all the necessary steps 
to ensure that its relocation costs are fully covered by the 
FCC.
    We also ask that our viewers be protected from any risk of 
signal disruption should we be unable to complete our station 
move on time due to no fault of our own. Anything less would 
not only be inequitable, but would undermine the ability of 
NewsChannel 5 and all of these impacted broadcasters to 
continue to serve Nashville and the other local communities.
    Thank you again for inviting me here today and I look 
forward to answering your questions.
    [The prepared statement of Ms. Plantinga follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
       
    Mrs. Blackburn. Mr. Tracy, 5 minutes.

                     STATEMENT OF JIM TRACY

    Mr. Tracy. Chairman Walden, Chairman Blackburn, members of 
the committee, subcommittee, my name is Jim Tracy. I am the CEO 
of Legacy Telecommunications in Burley, Washington. But I am 
here today testifying on behalf of the National Association of 
Tower Erectors, or NATE.
    I am honored to serve as the chairman there, and we are a 
nonprofit trade association in the wireless and broadcast 
infrastructure sectors. NATE's diverse membership encompasses 
every layer of the wireless communications ecosystems and 
infrastructure. It includes over 825 member firms. We build, 
service, and maintain hundreds of thousands of communications 
structures, towers, throughout the United States and other 
countries.
    But I would be remiss--and I am going to have to go off 
script here a minute--if I did not reach out and say thank you 
to the--a new concept is the zero responder, because the first 
responders don't get to talk to the people who are in trouble 
unless we keep them on air.
    And the people that we serve are working right now in 
California and in Oregon, by your house, Mr. Chairman. And they 
are working in Washington, and they are working in Montana to 
make sure that we are leapfrogging all of the cell sites ahead 
of the fires.
    And several weeks ago we started preparations, and ours 
were the people that were on the ground at the zero time, not 
the first responder, the zero responder to get ahead in the 
Gulf Coast to make sure that we could communicate when Irma was 
upon us--or when Harvey was upon us.
    And for the last week, down in south Florida, we have been 
making preparations with generators and cell sites, towers, and 
things like that to make sure that the first responders do have 
a way to communicate. So NATE member companies are and continue 
to be on the front lines of not only the natural disasters but 
also this broadcast repack.
    And the FirstNet deployment. And let's not forget about the 
densification of not only those networks but also the next gen, 
the 5G that is coming up. This is creating the perfect storm 
for the wireless tower climber.
    Now, NATE's mission statement is focused on the core 
principles, there are really four pillars: safety, quality, 
standards, and education. It was drafted 22 years ago when the 
association was founded. And not only are these the guiding 
principles today, but they are also the foundation on which we 
were built.
    In recent years, we have continued and we are working 
collaboratively with OSHA, FCC, and FAA. And we have developed 
a variety of safety and education programs and tools for our 
members and their climbers, such as the NATE STAR program, 
voluntary program where we worked directly with OSHA on and 
where our members commit to higher levels of education and 
training and that kind of thing.
    I also would like to bring to your attention our broadcast 
video repack. That is where we reached out and talked to the 
climbers to show them a video. These are the generation that 
text with two thumbs. We have to get to them and talk to them 
in a way that they can reach and understand.
    So that workforce video provides an overview of the unique 
challenges that are on these tall big iron structures. Greater 
detail on this is included at the end of the written testimony.
    We have also partnered with ANSI to create--ANSI, what we 
call A1048, which is the tower standard, defines what a tower 
is and how it should be put together.
    We also have worked with the National Wireless Safety 
Alliance. It is a broad coalition of all parts of this 
industry, which I am proud to sit with these people at the 
table today who are all of our friends. Anyway, they provide 
tower technician certification and credentialing to lift up the 
people who actually have to go out and do the work and allow 
them to do it with dignity.
    Through these and other efforts we are building, 
maintaining, modifying communication towers faster and safer 
than ever before.
    There is one unescapable fact: At present, there are not 
enough qualified workers to perform all the work that is going 
to be required in this perfect storm. Today, I am the voice for 
an estimated 30,000 tower industry workers. We refer to them as 
tower technicians. Many of these men and women are employed by 
NATE member firms. Yet the workforce challenges our industry 
faces continue to meet communications demands will be 
exacerbated not only by the repack but by the establishment of 
FirstNet, 5G, and the tower marking mandate that the FAA has on 
top of us.
    I kind of went off script a little bit, so I am going to 
skip ahead and say thank you very much for your time. It is not 
enough for people to want these tower jobs, but they have to be 
able to physically and mentally be capable of performing the 
tasks. So I appreciate your time today, and I look forward to 
answering your questions.
    [The prepared statement of Mr. Tracy follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
     
    Mrs. Blackburn. The gentleman yields back.
    And this concludes our testimony. And so we are going to 
move into our question and answer part of this hearing. And I 
am going to begin by recognizing myself for 5 minutes.
    And, Mr. Bergmann, I want to come to you. And let's talk a 
little bit about what you mentioned in your testimony with how 
an extension on the repack schedule, making changes there would 
affect the carrier participation in this and in future 
auctions. So I want you just to drill down on that just a 
little bit more.
    Mr. Bergmann. So I thank you very much.
    Mrs. Blackburn. Microphone, please.
    Mr. Bergmann. Thank you very much for the question. 
Appreciate it.
    For us, this transition really sort of boils down to one 
simple thing: The faster we get access to spectrum, the faster 
we build out. The faster we are able to serve rural America, 
the faster we are able to build out 5G, and the 39-month 
timeline is an absolutely critical part of that for our 
companies.
    We talked a lot about $20 billion that this auction raised, 
which is remarkable, right, the second largest spectrum auction 
by revenue. But what that means to the companies and the 
bidders, right, who have made those bids, I think is worth 
note, right.
    This is the equivalent of purchasing JetBlue, right, or 
purchasing Best Buy, or, you know, Domino's and Alaska 
Airlines, and then, you know, saying you are not going to be 
able to use it for, you know, 3 years and 3 months.
    So, you know, that is a tough sell to boards of directors, 
right, to go and make that kind of investment. But the reason 
our companies do that is because of competition in the wireless 
industry and a desire to serve and lead and bring new services 
to American consumers.
    So this timeline is really important for the investments 
that we are making. I think it is really important for us as a 
country as well too, when you think about the economic growth 
and job creation that will come out of this spectrum.
    So we are very appreciative of this committee's willingness 
to hold this oversight hearing and to try to make sure that we 
stick to that 39-month timeline.
    Mrs. Blackburn. OK. Ms. Murphy Thompson, you talked a 
little bit about jobs and jobs growth. Do you want to quickly 
add anything to his comments?
    Ms. Murphy Thompson. Yes. Thanks. I wholly agree with Mr. 
Bergmann about the uncertainty. But, in particular, for rural 
carriers who--I have a chart here that I would like to show 
you. Competitive carriers are the ones who really showed up for 
this auction. They are the blue ones. They basically mortgaged 
the farm for this spectrum, and access to it is critically 
important especially in rural areas. Rural constituents are the 
ones that are going to benefit most from things like telehealth 
and distance learning and enhanced public safety. And all those 
things are--incredibly spur job creation throughout rural 
America, which is what we are focused on.
    Mrs. Blackburn. All right. Ms. Plantinga, let me come to 
you. You have been through this before, and you referenced that 
in your testimony. And channel 5 is scheduled to go through in 
phase six----
    Ms. Plantinga. Yes.
    Mrs. Blackburn. --which means late 2019 for you.
    So what I would like for you to quickly do is discuss what 
you are doing to, in preparation, kind of how you are 
timelining this out since you have done this before, and then 
what your expectations are, and then, for the record, what your 
concerns are, if you will just timeline that out a little bit.
    Ms. Plantinga. Yes, Chairman Blackburn, thank you for that 
question.
    Because the E.W. Scripps Company has over half of its 
television stations changing channels as a result of the 
auction, we have a cross-company repack team that is leading 
the effort on this. At NewsChannel 5, I can tell you that 
already we have our strategic plan in place.
    Changing channels is a little bit like changing the tires 
on your car while you are still rolling down the highway, 
because you have to keep the existing signal on the air while 
you are building the infrastructure for the new station. And we 
have a strategic plan to do that using a temporary antenna and 
a lot of equipment.
    We have identified the individual pieces of equipment that 
we will purchase, and we have identified the vendors who will 
do the work for us. So I do believe our ducks are in a row for 
the transition.
    In terms of concerns, I would say based on past experience, 
I have a couple of concerns. The first, of course, is the 
financial piece. We want to be certain that we are fully 
reimbursed for the cost of this transition. Again, we were the 
people who drew the short straw, and we understand it is our 
responsibility to step up and make this happen, and we intend 
to do that. But we were told at the beginning of this process 
that those costs would be reimbursed, and we are looking for 
assurance that that is going to happen. The uncertainty around 
the financial piece is a concern, and we all know uncertainty 
is bad for business.
    The second concern that I have is around the timing. In our 
previous channel changes, we have had some difficulty. I think 
the current timeframe is achievable if all goes smoothly. But 
in our previous channel changes, we have run into some 
obstacles, and that timing is a concern.
    Mrs. Blackburn. Thank you.
    Time has expired. Mr. Doyle, you are recognized.
    Mr. Doyle. Thank you, Madam Chair.
    This first question is for the whole panel, and I am just 
looking for a yes or no answer. Do you think the broadcaster 
relocation fund is sufficient to relocate the broadcasters? I 
will start with Mr. Bergmann.
    Mr. Bergmann. Certainly, based on the FCC's initial 
estimates it looks like----
    Mrs. Blackburn. Microphone.
    Mr. Doyle. Microphone, please. And I am looking for a yes 
or no.
    Mr. Bergmann. Sure. I think based on current estimates, it 
looks like no.
    Ms. Murphy Thompson. No.
    Mr. Doyle. No.
    Mr. Kaplan. No.
    Mr. Doyle. No.
    Mr. Butler. No.
    Mr. Doyle. No.
    Ms. Plantinga. No.
    Mr. Doyle. No.
    Mr. Tracy. That is not my area of expertise.
    Mr. Doyle. OK. So we have, what, five noes and an 
abstention.
    Let me just say to my colleagues on both sides of the aisle 
that we are ready to close this gap. I don't think any of us 
want broadcasters in our districts to go off the air and people 
to be cut off because of an accounting error.
    Let me ask, first, Mr. Kaplan, I have heard allegations 
that some stations are dragging their feet to complete their 
channel moves in the hopes that if they wait long enough, they 
can more fully transition to the new ATSC 3.0 compatible 
equipment. I have also heard that some broadcasters are 
demanding that this new technology be included in new wireless 
devices. Mr. Kaplan, tell me, are stations trying to slow walk 
this process and have the deadlines pushed back or delayed in 
the hopes that they can get either taxpayers or auction winners 
eager to get access to this spectrum to pay for these upgrades 
or concede to costly additional features on their devices? Does 
your organization think that is right or fair?
    Mr. Kaplan. Well, absolutely not. I don't think that has 
actually been going on, to my knowledge. And the FCC has set up 
very specific deadlines by which you have to transition. So 
even if someone was to attempt to do that, there is no ability 
to do that because the FCC has said you must transition. And we 
have supported, throughout the process, an aggressive 
transition----
    Mr. Doyle. Mr. Bergmann, what do your members think?
    Mr. Bergmann. So I certainly think we think it would not be 
appropriate to slow down the transition for a technology 
upgrade. We certainly hope that broadcasters will do everything 
in their power to stick to the timeline.
    Mr. Doyle. Ms. Thompson--Ms. Murphy Thompson, excuse me, 
CCA has filed a petition to deny the Sinclair-Tribune merger at 
the FCC, and your testimony expresses concerns that this deal 
could impact the repacking process. Tell us what your concerns 
are.
    Ms. Murphy Thompson. Thank you. That is a good question. I 
appreciate the opportunity to expand on that.
    There are two primary concerns: First is the sheer size of 
Sinclair and Tribune, and together they would have to move over 
200 stations. We also have seen already that Sinclair has had 
reluctance in complying with a 39-month timeframe, and so post 
transaction we are concerned that having to move 200 stations 
could derail the timeframe and divert resources away from 
broadcasters who are ready to move.
    The second is Dielectric, who is a subsidiary, a broadcast 
antenna equipment manufacturer of Sinclair. They post 
transaction would hold 90 percent of the market share. That is 
pretty staggering. And with that and the daisy chain issues 
that will occur, we are concerned that there is going to be 
artificial demand for Sinclair stations and, again, diverting 
resources away from broadcasters that are ready to move.
    Mr. Doyle. Thank you.
    Mr. Butler, Deborah Acklin from WQED in Pittsburgh is on 
your board, and their station and others participated in the 
incentive auction to some degree. How do you see public 
television stations leveraging these funds to secure themselves 
and also expand and evolve their mission, and what is your hope 
for the public TV post auction?
    Mr. Butler. Thank you, sir. Well, WQED is certainly taking 
the lead, as it has over several decades, in enhancing the 
educational mission of all the public television, beginning 
with Mr. Rogers and The Fred Rogers Company and so forth.
    So I believe Deb's intention is to not only retire some 
debt, which her station incurred over the last many years 
trying to operate on a shoestring, but also to enhance this 
educational mission still more. I think that is also the 
ambition of most of the 26 stations that have participated in 
the auction and have gotten some kinds of proceeds from them.
    But, you know, local public television is a very 
idiosyncratic thing. The adage in our industry is if you have 
seen one public television station, you have seen one public 
television station. And so each of these stations is going to 
have its own philosophy about how to best apply these funds. 
And some will be enhancing their endowments. Some will be doing 
a lot more in public safety, which we are very much encouraging 
them to do and in education.
    But we are all in the public service business, and these 
funds, which are unevenly distributed across an idiosyncratic 
system will not give the entire public television system a 
particular boost in one direction or another. These will be 
local decisions that local managers like Deb will make.
    Mr. Doyle. Thank you. Thank you, Madame Chair.
    Mrs. Blackburn. Chairman Walden, you are recognized for 5 
minutes.
    Mr. Walden. Thank you very much, Madam Chair. And, Mr. 
Butler, I appreciate your testimony and the good work your 
stations do, and you are a reminder to the committee that it 
was our subcommittee that I chaired back when in 2012 that said 
probably need about $3 billion to do this.
    Mr. Butler. Exactly right. You were right.
    Mr. Walden. And then it ran into our friends in the Senate 
who wanted $1 billion, and we got it up to $1.75 billion, and 
my belief then was that wasn't enough but it was the best we 
could negotiate with Senator Reid and his people and now we 
are--some of us could say, told you so. But we still don't know 
what the exact number is going to be, and I think it is 
important we work together as we go through this transition and 
repack to make sure that broadcasters are not adversely harmed, 
because having played a large role in writing this the 
assurance was given, as we are reminded from my broadcast 
friends, that those innocent parties would not be injured, they 
would be compensated, and there would be time to work this 
through. And so, we have more work to do here clearly.
    Mr. Tracy, I appreciate your testimony. I was in the 
broadcast business for a number of years, and I remember one 
year the FCC came around and decided to check the paint on all 
the towers in our area, and decided a lot of them needed to be 
repainted all in the same year, which, of course, they checked 
in summer and at 55 degrees or whatever you can't repaint, and 
there are only like X number of painters, and so I worry about 
the pressure on your industry to be able to satisfy the re-move 
to hang these antennas, to perhaps erect new towers and all of 
that. And you have indicated the market will dictate that. You 
have pressures with FirstNet buildout and others. Can you meet 
the 39-month deadline?
    Mr. Tracy. It is really important to recognize that the 
application of pressure creates opportunity to hurry, and our 
business is not a good business to hurry in, and while most of 
the towers are not--the hyperbole indicates that we always say 
they are 2,000 feet tall----
    Mr. Walden. They are not.
    Mr. Tracy. In Mr. Kramer's market, that KVLY tower is 
probably 2,000 feet. In reality, most of them are 800, but that 
is still a long fall.
    Mr. Walden. Yes, we don't like to talk about it in those 
terms. I think ours was 140-something feet. It was an AM tower, 
but the TV towers are much higher. The question, though, is 
based on your experience, your knowledge of the industry, can 
these stations get relocated in 39 months?
    Mr. Tracy. Having not done it before, that is a great 
question. I think some of our friends on the broadcast side 
have brought up weather issues are certainly going to come into 
play, but I think the biggest thing we need to focus on is, 
number one, we need to do it safely regardless of time frame. 
Number two, we need to make sure that we are recruiting and 
training better than we have in the past so that we have the 
qualified--but frankly, there aren't enough people to do all of 
the work that we have mentioned across. I called it the 
``perfect storm for wireless.''
    Mr. Walden. Right.
    Mr. Tracy. It is 5G. It is FirstNet. It is repack. It is 
pinning for aviation FAA standards, and all of those are 
subject to time constraints.
    Mr. Walden. In terms of your situation in Tennessee, are 
you able to get the other equipment when you are ordering new 
antennas, new transmitters and all that, do you feel confident 
that your station there and the others you are involved with, 
that that flow is working in a timely enough manner?
    Ms. Plantinga. It is a good question. I believe that the 
time frame that has been laid out from our perspective is 
achievable if everything goes smoothly.
    Mr. Walden. All right.
    Ms. Plantinga. Our experience has been, specifically, in 
three channel changes, we have not had one that has gone 
smoothly.
    Mr. Walden. Yes, I understand that.
    Ms. Plantinga. Some specific concerns that have involved 
weather, that have involved equipment, and that have involved 
personnel.
    Mr. Walden. I guarantee I am the only chairman of the 
committee that has ever done an all-nighter at the base of a 
tower in a foot of snow while we are doing a transmission line. 
And I heard from broadcasters in my district especially, Patsy 
Small at KOBI about their issue with translators, and I think a 
lot of us thought that would be the last thing we would deal 
with, and indeed, it suddenly is becoming the first thing, and 
that the frequency tables aren't out there for the final 
allocations for those translators, so they may end up doing it 
twice. Are you running into that?
    Ms. Plantinga. I will tell you we have a translator in 
Nashville, which we think may not be affected by this, but my 
biggest takeaway regarding translators is the difference 
between a primary signal and a translator is something we may 
all discuss, but from a viewer perspective you get the signal 
or you don't.
    Mr. Walden. Right.
    Ms. Plantinga. And viewers that receive their signal via a 
translator value that signal as much as any other viewer, and 
if that is taken away, that is a tremendous disruption.
    Mr. Walden. Yes, and part of what we pledged was we would 
try not to diminish the coverage area of the stations, and in 
markets like I represent, a lot of that is served by those very 
translators, because you are off down in a hole somewhere.
    So it is something we probably should have included in the 
funding piece and did not, and it is something we are going to 
have to work through, but we also have to recognize we have got 
people that bought this spectrum and need to be able to move on 
it. So I understand that, as well. We have got our work to do, 
Madame Chair, and I appreciate you holding this hearing.
    Mrs. Blackburn. The gentleman yields back, and at this 
time, Mr. Pallone, you are recognized, and I know you want me 
to be generous with the time because you missed your opening 
statement.
    Mr. Pallone. Oh, well, that is all right, Madam Chair. I 
just wanted to ask unanimous consent to introduce my opening 
statement into the record.
    Mrs. Blackburn. So ordered.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    The images coming out of Texas over the past two weeks have 
been devastating. For those of us from New Jersey, they bring 
back difficult memories. Our hearts go out to everyone left 
struggling in the wake of Hurricane Harvey.
    But with all the devastation, there were also rays of hope. 
Some of the most heartening scenes from Texas also reminded us 
of what we saw 5 years ago--broadcasters once again stepping up 
when their communities need them most. It's not just the 
journalists who put down their mics to grab the hands of people 
stuck in raging flood waters. It's broadcasters doing what they 
do best--saving lives by providing the critical information 
that can let people know how to stay out of trouble.
    Just like hurricane Harvey, Sandy raged on for days and the 
recovery lasted months. When the flood waters rose, our power 
was wiped out, taking nearly all of our communications with it. 
But through it all, broadcast stations pushed through to serve 
the community with local content. Both television and radio 
stations kept on transmitting throughout.
    These efforts are what inspired me to introduce the Viewer 
Protection Act. This bill would make sure that television 
viewers and radio listeners will not lose their signal as a 
result of the FCC's incentive auction. The incentive auction 
helps reallocate airwaves from broadcasters who have chosen to 
give up their licenses to use for mobile broadband. The 
remaining broadcasters may need to be assigned new channels 
through a process called repacking. As I expected, the FCC does 
not have sufficient funds to pay for the repacking. And--if 
Congress does not act--some stations may be forced to go dark.
    The risks to viewers and listeners is too grave. As we are 
seeing, disaster can strike at any moment. Residents in the 
west are dealing with wildfires as we speak and people in 
Florida are preparing for a hurricane. When it does, local 
broadcasters are crucial to keeping us safe. The Viewer 
Protection Act will make sure that broadcasters can continue to 
serve us when we need them most. So, I urge my colleagues to 
act quickly to get this bill passed.
    But as important as it is, this bill alone is not enough. 
Because we also learned during Sandy that our phones become our 
lifelines. Unfortunately, 5 years ago we lost a quarter of our 
cell towers. In some parts of New Jersey, that number rose to 
as many as half. That was simply unacceptable.
    So I introduced the SANDy Act, which would help wireless 
carriers keep their towers operating during an emergency. I 
also worked with wireless carriers represented by CTIA and the 
Competitive Carriers Association to develop a set of voluntary 
commitments to improve service during disasters.
    One dropped call in an emergency is too much-it can be the 
difference between life and death. But the carriers' efforts 
seem to have improved the situation in Texas--we don't seem to 
be having the same problems so far. Instead of losing a quarter 
of cell towers, it looks like the number is closer to 5 
percent. While not perfect, that is a dramatic improvement. So 
I want to thank CTIA and CCA for their hard work, and I hope 
that we can continue to work together to make sure every call 
goes through.
    Finally, it's time for the Senate to pass the SANDy Act. 
The bill will make sure that wireless carriers, broadcasters, 
and cable operators can all better serve communities hit by 
disaster. We need to continue to work together to get this bill 
signed into law.

    Mr. Pallone. Thank you. So this will be the second time in 
the last decade that the TV industry has been repacked into a 
smaller portion of the spectrum. The first was in 2009 with the 
digital television transition, and just as back then, we need 
to make sure that viewers and radio listeners do not get left 
behind. And so, that is why I included funds in the Viewer 
Protection Act to help support consumer education. This was 
modelled on how Congress approached the DTV transition.
    So I wanted to start with Mr. Kaplan. You helped spearhead 
the consumer outreach for the FCC in 2009. In some ways, this 
transition seems even more complex than the last one. Are there 
lessons we learned from that experience that can help us this 
time around?
    Mr. Kaplan. I think there is. I think the first one that 
many members mentioned right off the bat is industry is working 
together. And I am also pleased to report that the FCC has been 
working very closely with our industry already to get things 
off the ground, and that will be critical because we all play a 
part, whether it is moving off spectrum, moving to spectrum, so 
I think collaboration is absolutely key.
    I think you mentioned the funding piece, and that 
absolutely is another important component. In the last few 
months of the DTV transition, Congress did approve $90 million 
to go towards consumer education. In that case we had one date, 
June 12th, 2009 that was the transition date. Here we are going 
to have many, many dates in each market just to solve with. So 
luckily, we at NAB have done a lot already. We have a Web site 
up and running for consumers, TVAnswers.org, PSAs, videos, 
things like that. So I think those kind of things are going to 
be imperative as we move forward.
    Mr. Pallone. Thank you. And then I wanted to ask Mr. 
Butler, during Hurricane Sandy public broadcasters played a 
critical role in keeping people informed and saving lives, and 
I know the stations in Houston have also been going above and 
beyond over the past couple of weeks, and these efforts 
demonstrate just how important public broadcasters are for our 
communities. So if you would just say what are the potential 
outcomes for public TV stations if there isn't enough money in 
the reimbursement fund?
    Mr. Butler. Well, as I have said, we operate on shoestrings 
to begin with, and we are non-profit organizations that don't 
have a lot of capital sitting around to invest in anything. And 
so, the risk for us is almost existential, if we have an 
unfunded mandate like a $50 million fund for a transition that 
we can't meet. So everything is at risk for us, all the 
programming that people count on, all the educational services 
that we provide to schools around the country, all the public 
safety work that we do in New Jersey and Texas and elsewhere, 
and the civic leadership that we provide, trying to equip our 
citizens to have all the information that they need to make the 
appropriate decisions, they need to make in the world's most 
important democracy. All of that is at risk if we are faced 
with a $50 million bill in addition to the $270 million that we 
are likely to get from the transition fund.
    If we can't pay for that, all of that is at risk, and it is 
a big problem for us, and I don't want to disparage anything 
that the commercial broadcasters feel about this, too, but as 
nonprofits, we have a particular interest in making sure that 
this program is well-funded.
    Mr. Pallone. Thank you. And then I wanted to go back to Ms. 
Thompson. One of the goals of the Viewer Protection Act is to 
make sure that we get the spectrum into the hands of wireless 
providers as quickly as possible, and I know that in response 
to Mr. Doyle, Ms. Thompson, you raised concerns about the 
potential impact of the proposed Sinclair/Tribune merger on the 
39-month repacking process time frame. But could you just 
elaborate on your concerns on how that might relate to the 
Viewer Protection Act, if you would?
    Ms. Murphy Thompson. Sure. So the transaction between 
Sinclair and Tribune will, by its own CEO's admission, create 
the largest broadcast company by a country mile. Having said 
that, that creates both vertical and horizontal market power 
that will allow them to delay this transition.
    We believe that oversight, and through the Viewer 
Protection Act, additional funds will be necessary to help 
broadcasters and the likes of Mr. Butler's company to help them 
transition, so we fully support providing additional funds when 
necessary. I think I would just close in saying that the 
Sinclair/Tribune transaction only benefits Sinclair and 
Tribune, which is why nobody supports it.
    Mr. Pallone. All right. Thank you very much. Thank you, 
Madam Chairman.
    Mrs. Blackburn. The ranking member yields back, and at this 
time, I recognize the vice chair of the subcommittee, Mr. 
Lance.
    Mr. Lance. Thank you, Madam Chair, and good morning to the 
distinguished panel. Mr. Bergmann, it is important that the 
United States win the race to 5G, because it means significant 
investment and jobs here in this country.
    A recent report by Accenture estimates that 5G will bring 3 
million new jobs, and half a trillion dollars in increased GDP. 
During the August district work period, I led a roundtable of 
companies in the district I serve. Those companies are some of 
the leading innovators in 5G, and we discussed how we can 
ensure that the United States will continue to be the leader in 
wireless innovation.
    One key that was brought up several times is the necessity 
of sufficient commercial spectrum available to meet the needs 
of 5G deployment. How important are FCC spectrum auctions, such 
as the most recent incentive auction to this effort?
    Mr. Bergmann. So thank you for the question and thank you 
for your leadership as well, too, on this topic. We really 
appreciated the 5G forum that you held back in New Jersey and 
drawing the attention of communities to the opportunities that 
5G brings. You talked a little bit about the investment that 
wireless providers are ready to make in 5G, $275 billion over 
the next 7 years, and the opportunities that creates, 3 million 
new jobs, half a trillion dollars to our economy, and that is 
really an opportunity for communities.
    I think we talked a lot about what 5G might mean in terms 
of increased speeds, increased capacity, but I think one of the 
things that is really exciting about 5G is the opportunity to 
the reinvent industries, to create smart communities, the 
opportunity to integrate wireless so that our transportation 
times go down, so that we save lives, so that our medical 
capabilities are enhanced. So there is a tremendous upside, I 
think, both for us as a Nation, and then for our communities 
with 5G.
    And the 600 megahertz spectrum is really a key part of 
that. We talked a lot about the need for low-, mid-, and high-
band spectrum for 5G, and this 600 megahertz spectrum is prime 
low-band spectrum that enables signals to travel long distances 
and enables us to connect 100 times the amount of devices that 
we could connect before. So as we think about trying to have 
automated vehicles, embed sensors into our water systems to get 
better water quality, and then just to connect people right 
across broad areas, the 600 megahertz spectrum will play a 
really key role and this incentive auction is a key part of 
that, making sure that we are sticking to our timelines, and 
getting that spectrum out to use quickly is also a really key 
part of it.
    Mr. Lance. Thank you very much for your answer. Ms. 
Plantinga, I may be from New Jersey, but my wife and I met at 
Vanderbilt Law School in Nashville, and the principal reason 
Marsha has permitted me to serve on this committee.
    Ms. Plantinga. Excellent. Good decision making all the way 
around.
    Mr. Lance. It certainly was a good decision that I was able 
to meet my wife.
    We witnessed the horrific hurricane, and we, of course, all 
pray for the people in Florida, and Ranking Member Pallone and 
I are intimately familiar with what happened at Sandy. 
Broadcasters keep local audiences informed and safe in times of 
emergency. How does your local station keep viewers informed 
and what does the repack mean for this critical service to 
communities across the Nation?
    Ms. Plantinga. Absolutely. We have a commitment to quality 
investigative journalism. Our station is a leader nationally in 
weather coverage and weather equipment. Tennessee is actually a 
dangerous place for weather. The number of deaths related to 
tornados in Tennessee is very high. So we take that 
responsibility very, very seriously. So that certainly is an 
important way to keep people informed.
    I will tell you in 2010 a 500-year flood hit Nashville 
Tennessee, and NewsChannel 5 was flooded. We lost our entire 
newsroom. Everyone had to leave that floor of the building, and 
we stayed on the air for several days with nonstop coverage 
keeping the community informed and letting people know where 
they could go, what areas to avoid and keeping our communities 
safe. So our commitment to safety and information in middle 
Tennessee is our greatest responsibility.
    In terms of what this repack means for us, my biggest 
concern at this point is regarding the timeline, because I know 
that we will do our part to stick to this timeline and want it 
followed. The difficulty is if something happens that is beyond 
our control, for example, weather, delivery of equipment--an 
example for weather would be a lot of people realize if you 
have a tornado, you are not going to be climbing a tower. 
People may not realize that a good, hard rain can prevent a 
tower climb; or a blustery day where the winds are going in a 
few different directions, so essentially, normal weather can 
shut down a tower climb. If you get a good week of rain in a 
compacted time period like ours where three stations are moving 
in 6 weeks, a week of rain can make that goal unattainable.
    So our ask is simply if it is a situation like that that is 
out of our control, that we have some type of safe harbor that 
allows our signal not to be cut off. Because my understanding 
is we don't have that now, and that if something like a rainy 
week caused us to miss our deadline, that NewsChannel 5 is shut 
off for all of middle Tennessee.
    Mr. Lance. Well, thank you my time is expired. That is a 
very good point, and my thanks to the entire panel. I yield 
back.
    Mrs. Blackburn. Ms. Clarke, you are recognized for 5 
minutes.
    Ms. Clarke. I thank you, Madam Chair, and I thank our 
ranking member. I thank our panelists for their expert 
testimony here this morning.
    To Mr. Butler, public television is an extremely valuable 
resource for Americans across the country. This has been for at 
least a generation or more now. Public television stations are 
critical for the education of children and preparing them for 
the new STEM jobs and opportunities of the future. 
Unfortunately, these operations aren't always fully funded. And 
I am concerned that the potential shortfall in the repack could 
endanger these small stations. Would you provide us with your 
view as to why getting the repack right is particularly 
important for the Nation's public television stations?
    Mr. Butler. Yes, ma'am. Thank you. As I have said in other 
responses to other members here, the issue that we face is that 
we just don't have this kind of money sitting around to invest. 
And absent the help of Congress itself we are going to have a 
very difficult time. It is going to be impossible to be frank 
for us to meet this burden, which Congress, in its original 
Spectrum Act, said we should not be burdened with to begin 
with, we should be held harmless, and this is a great harm that 
is about to be inflicted upon us, absent some additional funds.
    So I would say that the issue that we face is that all of 
the work that we do is endangered by the possibility that these 
funds will not be made available to us, and I think it is also 
important for the committee to understand that not only the 
urgency of the funds, but the fact that the funds will be made 
available sometime soon is just very important. Our stations, 
almost half of them, are state or university licensees, and so 
they are beholden to state budget cycles, university budget 
processes and so forth, and they have no capability on their 
own to raise this kind of money, and absent the certainty and 
the speed with which Congress needs to act on this issue, half 
of our stations are just going to be floundering without any 
certainty as to how to meet this obligation. And if we go dark, 
all of the things that we do in education and public safety and 
civic leadership are gone, and the American people have been 
quite generous in their support for us, not only for the 
Federal funding that we support, but in every public opinion 
poll that really has ever been taken since we went on the air. 
We are among the most trusted, the most valued institutions in 
America straight across the political spectrum, and I just 
don't think we want to lose that at a time like this.
    Ms. Clarke. Absolutely. I thank you for your response.
    Ms. Thompson, in your written testimony, you note that a 
combined Sinclair/Tribune transaction has the potential to slow 
the repacking process. I also understand that Sinclair already 
owns the dominant broadcast antennae manufacturing company. Do 
you think Sinclair could use its control of this company to 
slow down its competitors' ability to meet their repacking debt 
timelines?
    Ms. Murphy Thompson. Yes, that is a great question. And the 
answer is without a doubt. As I noted, Dielectric post-
transaction will have 90 percent of the market share, which 
will give them the ability to focus primarily on stations, the 
Sinclair stations diverting resources from broadcasters who 
were ready to move, many of whom have been doing preparations 
already today to make the 39-month deadline a reality. So we 
are very concerned about that.
    Ms. Clarke. Very well. Thank you for your response. And to 
Mr. Bergmann, can the 600 megahertz band support next 
generation 5G wireless technologies? And can we expect the 
deployment of 5G services in this 600 megahertz band to serve 
as a catalyst for 5G deployments in other frequency bands.
    Mr. Bergmann. Thank you, Congresswoman Clarke. Absolutely. 
And we are already seeing winners in the auctions start to roll 
out. Services in the spectrum is remarkable within 2 months of 
receiving licenses starting to build out advance LTE services, 
and planning for 5G as well, too.
    As a country, we are aiming to lead in 5G, and within our 
industry our members are vying to lead in 5G. The U.S. 
delegation went to the standards bodies and asked to have the 
standards accelerated by a year in 5G. And we are very much 
thinking about high bands, mid bands, and low bands. The 600 
megahertz spectrum is ideal for that low-band spectrum for 5G, 
so we very much have our plans on that.
    Ms. Clarke. Thank you.
    Ms. Murphy Thompson. Yes, I know your time is expired. Can 
I indulge you for a minute to collaborate what Mr. Bergmann 
said?
    Mrs. Blackburn. Quickly.
    Ms. Murphy Thompson. So we have a joint member T-Mobile who 
has already deployed in Cheyenne, Wyoming, and I just was 
hoping to put into the record the press release that describes 
how they have already been using the 600 megahertz spectrum.
    Mrs. Blackburn. The gentlelady yields back. At this time, 
Mr. Shimkus, you are recognized for 5 minutes.
    Mr. Shimkus. Thank you, Madam Chairman. Thank you for being 
here. It is a very good panel, very important subject; 39 
months and enough money, if you want to boil it down, I think 
that is kind of the debate.
    So just on just a few specifics. Mr. Bergmann, on the 5G--
first of all, Mr. Tracy, you are in a great position. People 
want to build towers. So we just got to find the workers, and 
we should be able to do that. Are a lot of the people who are 
building the towers, are they with bargained units or CWA, 
Communication Workers of America, or are they not bargained 
or--because I know some unions have the programs of Helmets to 
Hardhats programs where you can transition military personnel. 
I am a veteran, and a lot of us are, which would seem like, you 
know, if someone is ready to jump out of a plane or climb a 
cliff, they might be able to climb a tower. Do you have any 
other of those type of programs or work----
    Mr. Tracy. We have worked very closely with Warriors for 
Wireless, although that program is in the beginning, and it 
does take a longer time to transition into the broadcast 
portion. That is a skill set that is, quite frankly, very 
technical and different from what we do in the wireless carrier 
category, so.
    Mr. Shimkus. But also, our military does have a pretty good 
expertise in communications themselves?
    Mr. Tracy. They do, and you know, especially when you look 
at our special forces they have very defined objectives with 
small teams and compressed time frames that are very high-
pressure situations. They generally have thrived in wireless.
    Mr. Shimkus. And I have also worked in my district quite a 
bit about working with local community colleges who should be 
the gateway, and that has been--it is still challenging. I 
continue to be frustrated by the jobs available in the 
manufacturing sector and getting qualified people who will show 
up on time who are drug free and that challenge, and it is a 
societal thing, and I am kind of saddened for it, but you are 
in a good position if you are the builder and people need to 
redo these towers, so I wanted to throw that on the table.
    But following up, Mr. Bergmann, on 5G, we had a hearing a 
couple months ago, and part of that was not on towers anymore. 
The proposal is these small boxes to be placed kind of on Main 
Street, and affixed to buildings and stuff. Is that true?
    Mr. Bergmann. Thanks for the question, and it is a nice 
challenge to think about having more jobs, right, than we can 
fill, but you are absolutely right. As we think about the next 
generation of wireless architecture, we are thinking not just 
about large towers. That is still an important part of wireless 
network infrastructure, but we are thinking about this 
evolution to small cells, things that are more like the size of 
a pizza box or a baseball bat. And the challenge that we are 
facing is we have about 300,000 cell sites today. We are going 
to add about that same amount over the next 3 years, so 
literally, double the number of sites we have got. So as we 
think about those new small cells, we need to think about the 
infrastructure citing policies so that we make sure that we can 
build that out quickly.
    Mr. Shimkus. I think a lot of us are very supportive of 
that. Let me finish with the public broadcasting folks who--it 
is a great heritage, a great tradition, an example, and I 
wanted to use this opportunity to talk about the Luther movie 
that is going to be aired on many public broadcasting stations 
on September 12th. This is the 500th anniversary of the 
Reformation, so Thrivent Financial has put together a movie to 
talk about the life and times of Martin Luther and it will be 
aired nationally. That is something that obviously the for-
profit entities can't do all the time. It has been an education 
historical account, and that is a--that added value that you 
all bring, and so we would hope in this transition that we 
first do no harm to other voices out there in the broadcast 
sector.
    Mr. Butler, do you want to comment or add to that?
    Mr. Butler. Thank you, sir. Thank you very much. The Luther 
documentary is a wonderful example of the kind of work that we 
do that nobody else does. I am not on the programming end of 
the public television business, so I don't want to misrepresent 
anything here, but it is true that this is our stock in trade 
going to programming that nobody else is going to do.
    In that vein, Ken Burns will be premiering his 18-hour 
history of the Vietnam War starting on September the 17th on 
public television. There is nobody else in the world that would 
devote 18 hours to a history of the Vietnam War, other than 
American public television, and we are very proud of the fact 
that that is the business that we are in. Whatever one thinks 
one knows about the Vietnam War, your assumptions are going to 
be challenged and some will be overturned by this series that 
Ken has done.
    I have been fortunate to see all 18 hours of it, and it is 
a masterpiece. So we are very proud of the fact that we do that 
kind of programming, which is not going to find its way on any 
other broadcast signal, and we are committed to continuing that 
kind of work.
    Mr. Shimkus. Thank you. Thank you Mr. Chairman.
    Mr. Lance. [Presiding.] Thank you, Mr. Shimkus. The chair 
recognizes Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chair. This has really been 
informative, as all these hearings are. It is really great to 
have so many great people on the panel here, and thank you for 
your testimony in answering so many questions.
    The first thing I want to say, Ms. Plantinga, back in 2008, 
when Iowa suffered a huge flood, and half the damage of Iowa 
was in my congressional district. We had a local TV station was 
flooded in downtown Cedar Rapids, and they had folks literally 
broadcasting outside the station, and so, I just want to 
appreciate sort of the heroism and the great service of so many 
of these local folks like you. I really appreciate that.
    Clearly today, this selection impacts services that are 
critical to folks in my district, broadcast television, mobile 
broadband, and on both fronts, we need to make sure these 
transitions are done seamlessly, and I think we can all agree 
on that. In order to both protect consumers and make sure that 
Americans can reap the benefits of the auction, including the 
potential for improved rural broadband access, really important 
for my district, for Chairman Walden's and others, as well, 
Marsha's, others, and I am encouraged to hear there have 
already been voluntarily efforts by auction winners, T-Mobile, 
to help translators in low-power stations, particularly in 
those rural areas.
    And, Ms. Murphy Thompson, I appreciate you mentioning in 
your testimony my legislation, your written testimony. While 
the Rural Wireless Access Act does not deal specifically with 
repack, I share your concerns that we need better wireless 
coverage data in order to achieve the goal we all share of 
improving rural broadband access, and I want to thank, in 
particular, Mr. Costello, for joining me on that bill in a 
bipartisan effort, and I hope we can move that sooner rather 
than later.
    As sometimes happens, Mr. Shimkus sort of took some of my 
fire away already when it comes to workforce development but, I 
do have to ask you, Mr. Tracy, first of all, I appreciate your 
testimony. These are great jobs that can't be outsourced, for 
one thing. That is really fantastic, isn't it, that we don't 
have to worry about these kinds of jobs moving overseas? But I 
do want to ask you, sort of, what are the qualifications for 
these workers in the first instance, people who are doing these 
towers, working on these towers?
    Mr. Tracy. I guess the first element is the ability and the 
willingness to ascend and work at elevation. And when you get 
beyond, that the training and education requirements involve 
everything from fall protection to RF safety and awareness, and 
when you roll into that then you are talking about the 
differences in being able to identify the hazards of working at 
that, and it is everything from, you know predatory birds to 
hornets and wasp nests that are 130 feet off the ground that 
could surprise you. And when you add all those things up, it 
takes a long time to get someone so that they are very 
productive in their job, and you don't do anything second 
nature when you are 130 feet off the ground until you have done 
it quite a few times and your muscle memory begins to kick in.
    Mr. Loebsack. Well, I want to echo Mr. Shimkus' remarks 
about, especially, the Helmets to Hardhats program because I 
actually have a couple of kids who are in the Marine Corps and 
I have traveled overseas a number of times on the Armed 
Services Committee to visit our troops as a number of folks 
here today have. Those folks, in many instances, are very 
qualified for these kinds of jobs. I just would want to make 
sure that folks continue to tap into that reservoir of 
experience and ability and willingness to do these kind of jobs 
as well. I just wanted to second what Mr. Shimkus said.
    And certainly workforce preparation, you know, I am a huge 
fan of community colleges. I have my own saying I made up that 
community colleges are the principal intersection, not the 
only, but the principal intersection between education and 
workforce development, so I wanted to put a plug if for them as 
well as Mr. Shimkus did. Do you have any comments you want to 
make on that or other job training programs?
    Mr. Tracy. There is a community college in Iowa that does a 
wonderful job. They are an ATE member, and they do a wonderful 
job of training, but also, there is an outfit that operates in 
California, Texas, and in my home State of Washington called 
Airstreams Renewables, that is actually recruiting from active 
duty military and making the transition available for our 
heroes that are coming back from the campaigns.
    Mr. Loebsack. Thank you very much. One quick question I 
want to get on the record at least. It does sound like this 
broad agreement that more resources are needed to ensure the 
smooth transition that we are talking about. And Mr. Kaplan, 
why is it important to address the funding and possible timing 
shortcomes now even though the station moves themselves won't 
start until later next year?
    Mr. Kaplan. Well, as you said, the work is being done now, 
and so the equipment is being ordered, and all those kinds of 
things are taking place today, and if that is not addressed 
now, broadcasters have no certainty as to what might be 
covered, and especially in terms of timing, if they are going 
to be knocked off the air because of circumstances beyond their 
control, and they don't know that until that moment, that is 
going to be devastating for the broadcasting industry.
    Mr. Loebsack. Thanks to all of you and thanks, Madam Chair. 
I yield back.
    Mrs. Blackburn. The gentleman yields back. Mr. Guthrie, you 
are recognized.
    Mr. Guthrie. Thank you very much. Ms. Plantinga, so I am in 
Bowling Green, Bowling Green, Kentucky, so I am Metro, and I am 
in your media market, and so we get NewsChannel 5, and some 
people say people in my area know more about what is going on 
in Nashville than Kentucky. I was never reminded more of that 
once when I was flying from D.C. back to Nashville, and I was 
flying with the chairman, Diane Black, and Jim Cooper, and a 
lady nudged me after we landed and said, ``You can't believe 
this, but we were flying with three Congressmen.'' Well, I 
didn't say four, I just said ``Well, they looked familiar,'' 
but anyway, so a lot of people do watch--in my area, watch 
your--know more about Nashville going on. But I say this 
because even I have your program, your channel programmed on 
Sunday morning when I am at church. There is a show I like to 
watch when I get home, and so I guess my question is probably 
more of a nuisance than a problem, and Mr. Kaplan, if you will 
talk about this too, but you individually, there is going to be 
1,000 broadcast stations, yours in particular in my area, that 
is going to be relocating channels, and just the process of 
communicating that, there has got to be a plan. How are you 
going to let people know that, you know, 913 in Bowling Green 
is not going to be the channel used to watch NewsChannel 5?
    Ms. Plantinga. Absolutely. Having been through this three 
other times, it requires a strong message repeated. People 
don't get it the first time, and they need to hear it over and 
over again. Our plan is extensive coverage within newscasts, 
crawls at the bottom part of the screen during our highest 
profile programming, and PSAs that will be running on our 
channels. So we are going to have to tell people over and over 
and over again.
    One of the issues with the rescanning is, if someone is 
seeing Channel 5 on a certain frequency and that frequency goes 
away, they can no longer see our signal to hear that rescan 
message again, so it is tricky. I will tell you during our 
previous channel changes, I have called people's nephews and 
said, Could you please go to your Aunt Irma's house and help 
her rescan? I have literally been in people's homes, I have 
gone to homes with our chief engineer in middle Tennessee and 
walked into their living rooms and helped them rescan, because 
our motto is ``leave no home behind.'' We don't want anybody to 
lose the broadcast signals that they value.
    But it is a challenge. The communication piece is 
challenging, and the previous communication piece with the 
digital transition had everybody going at once and a lot of 
money being spent for a national messages as well as our local 
message.
    Mr. Guthrie. Maybe you should get one of your world famous 
weather persons to give a public service announcement? Oprah 
Winfrey started on your channel doing weather.
    Ms. Plantinga. Yes, she did.
    Mr. Guthrie. So, Mr. Kaplan, I assume all the other 
stations are going through the same?
    Mr. Kaplan. Yes, they are, and I echo that. One interesting 
thing here is that I went through this working for the FCC in 
2009 during the DTV transition, and was actually on the phone 
with a number of members of Congress who were trying to get 
their TVs rescanned, as well, on the Senate side.
    Mr. Guthrie. Of course.
    Mr. Kaplan. No consumer is going to know tomorrow if their 
wireless carrier has 10 less megahertz of spectrum, but they 
will know if they can't receive their television station. And 
that is a key thing here. Not that wireless isn't incredibly 
important, but in the timeliness of all of this, that is 
something to keep in mind.
    Mr. Guthrie. OK. Thank you. Mr. Tracy, actually stuff you 
don't think about when you are doing timelines, the FAA bill is 
kind of in limp status. Right now it is not moving forward, and 
I know there is some requirements for towers in the FAA bill 
for marking and different things that you have to do. How does 
the fact that that is not passed yet and in place and you know 
exactly what you need to do affecting your ability to repack 
and do what you need to do to towers? Is that interfering at 
all, resources or timing? Does that have anything to do with 
what is going on here?
    Mr. Tracy. Well, in terms of planning and logistics, it is 
tough to prepare for a job if you don't know it is coming. And 
we do know the 5G is coming. We don't really know when, but we 
know that the rollout is coming sooner rather than later.
    We know that FirstNet is under pretty specific time 
constraint, and we are going to be actively participating in 
that, but here again, when you add all these things together 
and you talk about the perfect storm for the wireless worker 
now----
    Mr. Guthrie. Because you are adding the----
    Mr. Tracy [continuing]. We have a lot of people we still 
have to train, because our workforce is too small right now, 
and recruiting is an issue in virtually any business, but when 
you have to add the physical nature of what we do to the 
technical nature, we have to log on to a laptop, there is a lot 
of skill sets that really come into play.
    Mr. Guthrie. I have about half a minute, so I will ask 
another question, but Mr. Kaplan or Mr. Bergmann, you want to 
talk about how the other requirements that are coming from 
other bills are affecting your ability to move forward on time 
frame, or does it affect your timing?
    Mr. Bergmann. So certainly, the work that this committee is 
doing to speed the infrastructure setting process I think is 
really critical and important in terms of our ability to roll 
out----
    Mr. Guthrie. Does the FAA bill have any impact on what you 
do?
    Mr. Bergmann. Certainly, absolutely. The ability to make 
sure that we are spending resources smartly and efficiently 
with respect to tower study and maintenance, and it is funny, 
one of the words I think you have heard from me to the panel is 
``collaboration.'' This is one of the many areas where we work 
closely with our friends in the broadcast industry and 
appreciate working with this committee on that legislation, as 
well, too.
    Mr. Guthrie. I am out of time, so I yield back.
    Mrs. Blackburn. Mr. McNerney you are recognized for 5 
minutes.
    Mr. McNerney. I thank the chairlady and I thank the 
witnesses for their testimony. I find it very interesting. 
First of all, Mr. Bergmann, my district is largely rural and 
has spotty connections, some agriculture. What is in mind, how 
would my deployment of 5G benefit the constituents in my 
district?
    Mr. Bergmann. So thanks very much for the question, and I 
do agree with you. I think communities notice whether they are 
part of the next G, right? If they have 4G, if they have 5G, 
they really notice, and it makes a big difference to those 
communities. So one of the great things about this spectrum is 
that it is ideally suited as a low-band 5G band. So the kinds 
of things that that unlocks, right, are faster services, better 
downloads, much more responsive services.
    So from a rural perspective, we think about things like 
being able to take advantage of medical professionals in urban 
centers and have that kind of virtual diagnosis and treatment, 
and the reduced latency that you will have from 5G really opens 
up tremendous opportunities to try to bring better medical care 
to rural areas. Think about education, right, and the ability 
for kids in a rural classroom to put on virtual reality 
glasses, and all of a sudden, be in the Smithsonian. So a trip 
that might have otherwise been inaccessible is now there.
    Mr. McNerney. So there is a lot of benefits then for rural 
kind of activity basically?
    Mr. Bergmann. Very much so.
    Mr. McNerney. Considering my concern about the Sinclair/
Tribune merger, what interest does Sinclair have in the ATSC 
3.0?
    Mr. Bergmann. My understanding is that the broadcasters are 
all thinking about the transition and upgrading their equipment 
and we certainly support that ability, but we think it is 
really critical that a transition to ATSC 3.0 not slow down 
that transition. And again, we certainly hope that every 
broadcaster will be doing everything that it can to make sure 
we stick within that transition.
    Mr. McNerney. Thank you. Ms. Murphy Thompson, has Sinclair 
taken any other steps that would cause delays in the repacking 
process?
    Ms. Murphy Thompson. As I have already noted, they have 
taken several steps, including delaying the outset of the 
incentive auction and also creating additional market power 
that would enhance their reluctance to comply with this, and, 
you know, the vertical market power that they would possess 
post transaction would have a significant impact on the 
transition.
    And if I could, just for a second, comment on what Mr. 
Bergmann said, I agree. The only thing I would note for rural 
areas in particular, you know, many of them are still going 
from 3G to 4G, so this spectrum is critically important to get 
access to it immediately so that they can get to their next 
generation of technology and then build on to 5G.
    Mr. McNerney. So how would the Sinclair/Tribune merger 
impact efforts to close the digital divide then following up 
your----
    Ms. Murphy Thompson. I think it would detrimentally affect 
that. Our carriers showed up to this auction in droves because 
they need the spectrum. They wouldn't have spent all this money 
in order to sit on it. They are going to deploy it, and, you 
know, even if you delay at the outset, there is a cascading 
effect which could push this time frame out for years, which 
would deprive rural carriers, rural consumers of these next 
generation services.
    Mr. McNerney. And the last question about that. How might 
the merger impact U.S. competitiveness in the global rush to 
5G?
    Ms. Murphy Thompson. Yes, it is the same answer, frankly. 
This spectrum is the baseline foundation to build on 5G, and 
yes, some of it will be used for 5G, but it is the foundation 
layer, and without being able to connect, you are not going to 
be able to use the remote patient monitoring that Mr. Bergman 
talked about. So if we want to leave the race to 5G, we need to 
unleash this 600 megahertz band spectrum in the timeframe that 
was allotted.
    Mr. McNerney. Thank you. Mr. Kaplan, are you confident that 
no broadcaster will go dark as a result of the transition to 
3.0?
    Mr. Kaplan. As a result of the transition to next gen 
television, absolutely not. All it will do is enhance service. 
It is our version of 5G, and we are extremely excited about 
what it can do for consumers.
    Mr. McNerney. So there won't be any delays or any 
broadcasters going dark then?
    Mr. Kaplan. There will be no delays as a result of a next 
generation television, correct.
    Mr. McNerney. Right. Of 3.0 ATSC?
    Mr. Kaplan. Yes. What we call next gen television, ATSC 3.0 
should have no bearing whatsoever on the repack.
    Mr. McNerney. I am going to be out of time, but I was going 
to ask you about broadcasters currently taking to protect 
themselves from cyber attacks, but I will have to let that 
question go.
    Mrs. Blackburn. The gentleman can submit that for the 
record as he yields back, and we will submit that to you for 
later.
    Mr. Kinzinger, you are recognized.
    Mr. Kinzinger. Well, thank you, Madam Chair. Thank you for 
yielding and for holding the important hearing today and for 
all of you for being here. I really appreciate it. The 
incentive auction has proven to be a unique and innovative way 
to bring additional spectrum to the broadband market and 
additional revenues to the Federal Government. We are all 
invested in ensuring that it remains successful and can serve 
as a model for future allocations of spectrum or anything else 
we want to go about that way. But I am equally concerned that 
the local broadcasters, many of whom are being asked to move 
channels to make all of this work, are treated fairly and that 
no consumer is harmed in the process.
    So Mr. Kaplan, you mentioned in your testimony that NAB is 
not proposing a new repacking deadline or an open ended 
extension of the FCC's 39-month repacking window. But you did 
say that Congress should act to make it clear that no 
individual station should go off the air, or have significant 
reduction in service if, in fact, circumstances outside its 
control prevent its timely transition.
    The FCC already has the authority to grant deadline 
extensions on a case-by-case basis upon reviewing the 
circumstances and the variables that are outside of the control 
of the broadcaster. Variables, including inclement weather, 
crew shortages, zoning issues, and other matters that may 
affect the earnest efforts of the broadcasters. Can you please 
explain in greater detail what you believe Congress should 
actually do to provide this leeway? In other words, what sort 
of language or guarantee are you proposing that we enact? And 
please be as precise as you can.
    Mr. Kaplan. Sure. Thank you for the question. And, yes, 
there is actually various bills out there already with the 
language that would do exactly what we would like to do, and I 
am glad you reiterated what I said in my testimony which is 
this should be a fairly easy problem to solve in that it is not 
a debate over whether 39 months is the correct number of 
months. It is really just that safety valve as to if you are 
unable to transition due to circumstances outside of your 
control, you should not be penalized, and I think we can all 
agree on that. The FCC has said that it does not intend to 
grant waivers if it affects the overall transition. So that is 
kind of counted us in already, and if you look at NewsChannel 
5's circumstance where they are moving to another channel with 
someone on it, so they have to move, and then their channel, 
once they vacate, is going to have someone else move on to it, 
you can see how that obviously one move affects the other.
    So Congress is important in this process because the FCC 
really looks to this committee to give it direction, and so 
making that statement that no station should go dark, or have a 
significant loss in service due to circumstances beyond its 
control, that would help us greatly at this point.
    Mr. Kinzinger. So you think just basically making the 
statement and having the hearings is----
    Mr. Kaplan. I think legislation is incredibly important 
paired with legislation as we have all agreed here except for 
the one abstention that there should be more money in the fund.
    Mr. Kinzinger. Roger. All right. Mr. Bergmann, as you know, 
there are millions of our constituents across the country that 
are going to be affected by this transition. Ideally, 
everything will go off without a hitch and at the end of the 
process, everybody will have equal or better access to 
television broadcasting, more people will have access to 
broadband in rural areas, and eventually, everyone will have a 
much faster internet speed.
    It may be a bit optimistic to think that everything will go 
off without a hitch, but we are holding out hope. But to reach 
the end goals, everyone is going to need to work together. So 
as you mentioned today in your testimony, there are authorities 
at the FCC to make some deadline extensions on a case-by-case 
basis. We don't yet know if there will be any such issues, but 
if they arise sometime down the road, are you and your member 
companies prepared to deal with it, and if so, could you please 
describe how you see that situation unfolding in a productive 
and collaborative manner?
    Mr. Bergmann. So thanks, Congressman, very much for the 
question. So, you know, we absolutely hope and expect that we 
are going to be rolling out services, and we are seeing that 
before 39 months, right? Just within 2 months of the auction we 
see our member companies rolling out services. So I think a lot 
of what we are trying to do is think about how this process 
plays out over time. And the FCC has put together, I think, a 
very thoughtful transition plan that is based on 10 phases, so 
we try to chunk, you know, the challenges up as we go, but as 
you mentioned, they have also built in some backup plans, and 
the ability to grant waivers, and I think you talked a little 
bit about those sort of touchstone, right, or unforeseeable 
circumstances or events that are beyond the station's control.
    So I think the FCC very much has the authority to address 
those kinds of issues as they come up, and I would completely 
agree with, you know, my friends in the broadcast industry, we 
are really confident that Chairman Pai and the commissioners 
are focused on this task. They have all come here and said, and 
you have asked before, so I know you care deeply about this 
issue, they said no station will go dark.
    So I think we are confident that the FCC has the authority, 
has the ability, has the willingness to make sure this is a 
smooth transition.
    Mr. Kinzinger. Well, thank you. And I want to quickly say 
we have made it clear that broadcasters will be made whole 
throughout this whole process. I intend to work with my 
colleagues to ensure that we uphold our end of the bargain. And 
I appreciate both sides for really engaging in this incredible 
undertaking, because this is massive and complicated and very 
much appreciated. I think at the end of the day, it all works 
out well. So with that, Madam Chair, I yield back.
    Mrs. Blackburn. The gentleman yields back. And Ms. Eshoo, 
you are recognized for 5 minutes.
    Ms. Eshoo. Thank you, Madam Chairwoman. This is an 
important hearing, and it is timely because of the challenges 
of the hurricanes, and it certainly cast a spotlight on what 
broadcasters do, how the American people depend on broadcasting 
in our country, and, of course, all the issues that are 
attendant to the auction and what is moving forward.
    So thank you for the wonderful testimony that each one of 
you have given. I love hearings because I always learn so much 
from the people that come here to be instructive to us.
    First, my sensibilities are that we did a very good job in 
thinking through the auction. The auction brought in tremendous 
sums of dollars. I think that there is a lot of good news that 
is going to come out of it, so that--and the American people 
are going to benefit from it, as well. You have already given 
testimony about that, but I just want to say that I think 
that--number one, I think the 39 months is a long period of 
time. And while I understand that we are all sensitive about 
what can happen, and our sensitivities are at an all-time high 
now because of Harvey and Irma and all that is going on; I 
don't think there was anyone that objected in the beginning 
that 39 months was an insufficient timeframe to accomplish what 
needed to be accomplished.
    So I think the case that has been made relative to the 
dollars that are needed in order to make the transition is a 
case that the Congress has to pay very close attention to.
    So I have raised concerns about the proposed Sinclair/
Tribune merger from a media consolidation perspective, and I 
called on the chairman of the committee to hold a hearing on 
the merger. I also know that there are a lot of issues going on 
behind the scenes regarding the ATSC 3.0 standards with respect 
to the merger and the spectrum repacking plan.
    I am very, very sensitive about media consolidation. I 
think in a democracy there should be many voices to the many, 
not fewer voices to the many. And so, I was very concerned 
about that. And I still think that we should be examining that 
with a hearing.
    We also know that spectrum is critical for the deployment 
of wireless broadband in our country, and service in rural 
areas and within buildings. So I want to ask some questions 
about that.
    First, going to Ms. Thompson, do you think the issue 
surrounding the ATSC 3.0 standard further justify the need for 
a hearing here? You can say just yes or no.
    Ms. Murphy Thompson. Yes.
    Ms. Eshoo. Why? Briefly.
    Ms. Murphy Thompson. Because I think, as I said earlier, 
that this transaction supports only Sinclair and Tribune, which 
is why nobody else supports it. And in particular, you know, 
oversight over this will provide a lot of further detail about 
what they intend to do, including information about ATSC 3.0.
    Ms. Eshoo. Thank you. And on the issue of the critical 
deployment of wireless broadband, especially in rural areas and 
within buildings, how important do you think this repacking 
plan is for the future deployment of NextGen 911 services and 
the ability of individuals in rural areas and in buildings to 
make 911 calls from their mobile devices?
    Ms. Murphy Thompson. Sure. And if I could, just first thank 
you for being the cochair of the NG 911 Caucus. As a board 
member, I really appreciate all the work you have done there.
    Ms. Eshoo. Thank you, along with Mr. Shimkus.
    Ms. Murphy Thompson. Yes, Mr. Shimkus as well and other 
members of the committee. And I think a lot of this comes back 
to public safety, a lot of what we talked about here today. 
And, you know, I think that you hope you never have to call 
911, but when you do, you want it to connect, and this 
spectrum, in particular, provides excellent propagation 
characteristics to travel far distance in rural areas, which 
means that rural consumers will be able to connect to public 
safety emergency personnel as we have seen in collaboration 
with the broadcasters during Hurricane Harvey.
    Ms. Eshoo. I just want to do a shout out to Mr. Butler. I 
think that public broadcasting is a national treasure, an 
absolute national treasure.
    Mr. Butler. Thank you, ma'am.
    Ms. Eshoo. And I am a big fan. I can't imagine my life 
without public broadcasting. It is where I receive my news. I 
trust that, and its examination, and again, a gift to the 
American people that keeps on giving. Thank you.
    Mrs. Blackburn. The gentlelady yields back. Mr. Bilirakis, 
you are recognized for 5 minutes.
    Mr. Bilirakis. Thank you, Madam Chairman, I appreciate it. 
I thank the panel for their testimony this morning. I guess it 
is almost afternoon.
    Mr. Bergmann, the Spectrum Act does not allow low power 
television and translator stations to receive relocation funds. 
I understand that some of the members of the CTIA have 
committed resources to help these stations during the repacking 
process to advance a timely transition. Can you expand on some 
of the work your members are doing with these low power TV and 
translator stations?
    Mr. Bergmann. Sure. Thank you so much for the question. I 
appreciate it. We talked a little bit about collaboration. I 
think this is a great example of it where, you know, T-Mobile, 
our largest winner in the auction has worked with LPTV 
stations, rural public broadcaster stations to make sure that 
we are doing what we can to try to ameliorate some of those 
challenges. We saw for some of the LPTV stations was a need to, 
in some cases, move twice before they got to their new home, 
their new channel. And so T-Mobile announced a partnership to 
fund a number of those moves. So I think, you know, my 
colleague, Mr. Butler, did a great job talking about from the 
public broadcaster standpoint, the opportunity to make sure 
that 380-plus translators are facilitated, and I think you will 
see more of that. There is a lot of collaboration happening in 
the industry today from a wireless perspective. We think it is 
important that we are able to roll out quickly in these 
services. I know that this committee takes this issue 
seriously, and is thinking about those questions about funding. 
But we want to be good partners in that, as well too.
    Mr. Bilirakis. Very good. I have a second question for you, 
sir. As you noted in your testimony, the FCC found 95 percent 
of the cell sites in counties affected by Harvey were still 
working, which is significant, in my opinion. Now the people in 
my district are preparing for Hurricane Irma. In years ahead 
with carriers developing new uses for spectrum previously used 
by broadcasters, what potential advantages will users have to 
do that do not currently exist.
    Mr. Bergmann. Sure. So it is a really important and timely 
question. And I have to say this committee has spent a lot of 
time thinking about network resiliency, in part, in response to 
some of what we heard from this committee. Wireless carriers 
rolled out a network resiliency framework last year that 
emphasized a lot of things that I think paid dividends in 
Harvey. Preplanning, information sharing, collaboration, again, 
making sure that we educate consumers, and we did all of those 
things before Harvey, you know, an unprecedented event, and I 
think really saw remarkable performance. You mentioned 95 plus 
percent of cell sites operational, and you know, what that 
enabled were calls to 911. It enabled wireless emergency 
alerts, and, you know, now we are preparing for another.
    Mr. Bilirakis. You are saving lives.
    Mr. Bergmann. Saving lives, absolutely.
    So each storm is unique, right? And so Irma will present 
different challenges. In Harvey, it was flooding. In Irma, we 
are talking about record-setting winds.
    But our companies are doing the same things now to 
preposition for that, as well, too, making sure that we are 
doing everything we can to be ready to try to keep service up, 
get service back quickly where it goes down, and educate 
consumers about how to be smart and use their wireless devices 
in the time of need.
    Mr. Bilirakis. Very good. Thank you.
    Does anyone else want to comment on that with regard to the 
hurricane?
    Mr. Kaplan. I would love to.
    Mr. Bilirakis. Sure.
    Mr. Kaplan. I think, obviously, broadcasters, like wireless 
companies, have a lot at stake in these times. And we report on 
the front lines, broadcasters do, as you saw throughout 
Hurricane Harvey.
    I think the hurricane situation actually really sheds light 
on the challenges we face during a repack, so I am glad you 
raised this. If you think about it, in phase one of the repack, 
three stations in Beaumont, Texas, are scheduled to move. In 
phase two, 6 months later, another eight stations are set to 
move. If we were just upon that deadline, what would we do?
    At the moment, the FCC rule says, ``You are off the air. 
Sorry.'' And so that is why we are before this committee to 
say, hey, there is a sane way to do this. We can all work 
together. We don't have to adjust the entire timeframe, but, in 
these circumstances beyond their control, there should be a 
safety valve that we understand. Because, literally, those 
stations could have to go off the air during hurricane 
coverage, according to FCC rules.
    So it is very important. And hurricanes, you know, it 
shouldn't take that for us to realize it, but I do think that 
sheds light on this very important problem.
    Mr. Bilirakis. Well, thank you very much.
    I yield back, Madam Chair. I appreciate it.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Matsui, you are recognized for 5 minutes.
    Ms. Matsui. Thank you very much.
    And I really want to thank the witnesses for being here 
today. This has been very enlightening. Thank you so much.
    Many of my questions have already been asked already, so 
let me ask something that probably hasn't been asked yet.
    You know, we have seen the critical role that local radio 
stations play in times of severe weather. And, sadly, they will 
probably be called upon later on in Chicago this week.
    My understanding is that many radio stations have 
transmitters on the same towers as TV stations and will have no 
choice but to turn off their signals and possibly erect new 
auxiliary transmitters in order to continue serving local 
listeners during the time when crews are working on impacted TV 
stations.
    Mr. Kaplan, does the FCC have authority under existing law 
to reimburse radio stations for the costs they may necessarily 
incur as a consequence of the repacking of the TV broadcast 
spectrum? And should Congress fix this problem by making funds 
available to impacted radio station just as we are making funds 
available to TV stations?
    Mr. Kaplan. Thank you for the question.
    First, the law of the Spectrum Act is very clear that only 
TV licensees are eligible for the funds under the current law.
    And to your second question, yes, Congress should make 
those funds available. Radio stations are innocent bystanders 
in this process, and what happens is they have to power down so 
that work can be done to towers when they are co-located. And 
there are almost 700 radio stations, FM stations that are 
affected.
    Ms. Matsui. Right, right. Thank you.
    We have heard some discussion today regarding the potential 
consumer education that would be necessary during the repack.
    And, Mr. Butler, I am also a fan of public television, 
having been a chairman of the board of one of them in 
Sacramento.
    Mr. Butler. Yes.
    Ms. Matsui. And so it has been with interest I have been 
following what has been happening.
    But can you speak about the particular challenges to public 
broadcasters in making sure viewers can find their stations 
during and after the repack?
    Mr. Butler. Yes, ma'am. And, in particular, our audience, 
while it goes across generations, is particularly centered on 
serving very young people and much older people. And those are 
two populations that they and their families are going to need 
all the consumer education they can get.
    This is not just a matter of turning a switch between 
analog and digital, as we did 8 years ago. It is a matter of 
changing signals within a market several times. And there is so 
much room for confusion in a process like that that we think 
consumer education is just an extremely important thing.
    It was funded, I believe I am right, at $90 million during 
the digital transition. And we think that at least that kind of 
money should be invested in consumer education for this 
transition as well.
    Ms. Matsui. OK. Thank you.
    As I have indicated, I am very sympathetic to concerns that 
broadcasters have about circumstances like whether that may 
affect their ability to transition in time. However, I am not 
sympathetic to any intentional delays or gaming of the system. 
I am also concerned that, if the Sinclair merger goes through, 
Sinclair will have significant incentive to slow-walk the 
transition.
    Mr. Kaplan, what safeguards are we putting in place to 
ensure that the transition is not unnecessarily delayed?
    Mr. Kaplan. Thank you for the question.
    I think that the safeguards are already in place. With 
deadlines and timelines enforced by the FCC that we understand 
and agree to, there is really no room for a broadcaster to drag 
their feet. And what we are looking for today is just the 
safeguards that, if something is beyond your control--so the 
circumstance you described I would not imagine would be 
included--that is what we are looking to have covered.
    And I think you know, in particular, that broadcasters like 
to work collaboratively with the wireless industry. With your 
leadership, we worked with the Department of Defense to help 
clear the AWS-3 spectrum that led to the most successful 
auction of all time.
    Ms. Matsui. All right. Well, thank you very much.
    And I yield back.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Long, you are recognized for 5 minutes.
    Mr. Long. Thank you, Madam Chair.
    And, Mr. Bergmann, do you believe that the 39-month date 
played a role in how much wireless carriers paid for the 
spectrum during the incentive auction?
    Mr. Bergmann. Very much, Congressman. You know, when they 
get access spectrum is a critical part of how they decide what 
they should bid. When we are talking about bids of $20 billion, 
again, imagine purchasing JetBlue and realizing that you are 
going to have to then wait for more than 3 years.
    Mr. Long. Are you talking about the JetBlue that is not 
going to charge anybody more than $99 to fly out of Florida 
this week?
    Mr. Bergmann. Yes.
    Mr. Long. I had to get a little plug in there.
    Mr. Bergmann. Right. So you want to be able to use it when 
you need it, right?
    Mr. Long. Right.
    Mr. Bergmann. So, very much.
    Mr. Long. Yes.
    Are you concerned that if Congress changed the date that it 
could have an impact on the success of future auctions?
    Mr. Bergmann. So, we are. When companies make investments 
of this size, it is predicated on the ability to use that 
spectrum. So, we do think that if government is changing the 
rules afterwards and you don't get access to it at the same 
time, they will discount that in their bids the next time. And 
I think what that means is lower prices for bidding and, 
potentially, in two-sided auctions, less spectrum cleared.
    So, from a perspective of the economy, right, that is not a 
good thing, right? We know every time we make available 
spectrum, wireless providers invest, wireless providers create 
jobs, wireless providers bring new services to communities. And 
so the less spectrum that we bring to market, I think overall 
as a country we are harmed.
    And then I know, certainly, from this committee's 
perspective, the ability to raise money, it can be very 
helpful. The 2012 Spectrum Act raised over $60 billion, right? 
It enabled the rollout of FirstNet. Just from this last 
auction, $7 billion alone went to deficit reduction.
    So the ability to make sure that we are, you know, able to 
take advantage of that tool for our economy, for our rural 
communities, and also, as a potential funding source are all 
really important as part of this process.
    Mr. Kaplan. Congressman Long, may I quickly address one 
comment that was made?
    You know, earlier in the hearing, we heard--I just want to 
make sure we are all on the same page here. The Spectrum Act 
itself never set a deadline for repacking. Congress did not 
address that issue. It left it to the FCC to address. The FCC 
then went ahead and adopted the 39-month deadline.
    And, by the way, which is still--there were 31 petitions 
for reconsideration filed during the early stages of the 
auction about various things in the auction. Thirty of them are 
closed. Only one remained open throughout the auction period, 
and that was the deadline.
    And, to this day, 39 months is still an open question at 
the FCC. So I just want to be clear that auction bidders will--
--
    Mr. Long. Right. Thank you.
    My next question is for Colonel Tracy.
    Colonel--that is correct, isn't it? You are a colonel?
    Mr. Tracy. No, sir.
    Mr. Long. You are not an auctioneer?
    Mr. Tracy. Not yet, sir. I attend the Western School of 
Auctioneering later this month.
    Mr. Long. Oh, OK. Well, you will soon be a colonel. Because 
all auctioneers are colonels, anywhere you go. If you ever go 
to an auction, don't know the guy's name, you say, ``Hey, 
Colonel,'' he will answer you. So I thought you had already 
graduated from auction school.
    Mr. Tracy. In advance, I thank you, sir.
    Mr. Long. As one colonel to another.
    As carriers move to deploy the new 5G technologies, how 
will the tower industry respond to needs from both broadcasters 
and carrier communities?
    Mr. Tracy. Wow, that is a huge question. As a member of 
CTIA and with great friends at the broadcasting, we are kind of 
caught in the middle of any argument that happens between 
dollars and time. That is why I said it was way over my pay 
grade to comment on how much it was going to cost.
    I am a simple tower guy, and I can tell you that we have a 
math problem. And the math problem involves training enough 
workers to get up on a tower, where a lot of people, frankly, 
don't want to be, and getting the work done with quality and 
safety as our top priorities.
    So, if I look at the math problem, I would say that if 
there is anyplace that this math problem can be solved, it is 
in the United States of America. I trust our workforce more 
than I trust any other one place in the world. And especially 
with--we talked about our former military coming in. These 
folks, if anybody can get it done and solve this math problem, 
it is the people in the wireless community.
    Mr. Long. Thank you.
    And, Madam Chair, I hold in my hot little hands ``Something 
for Cellphone Users to Celebrate: The FCC's Air Waives Auction 
Provides a Much-Needed Boost to Main Street.'' This is 
something I would like to submit. It is an op-ed by former 
Energy and Commerce Committee Chairman--Communications and 
Technology Subcommittee Chairman Billy Tauzin, congratulating 
Congress and celebrating the advanced mobile services that will 
soon be deployed to places that either lack competition in the 
high-speed wireless marketplace or don't have it at all.
    Mrs. Blackburn. So ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Long. And, with that, I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Welch, 5 minutes.
    Mr. Welch. Thank you, Madam Chair.
    First of all, I want to thank the panel. It has been a 
really good panel. Bottom line here, we want to make sure the 
broadcasters have a good signal, and we want to get the benefit 
of deployment of broadband in rural areas. That is a really, 
really important issue for rural America, which is most of 
America.
    Mr. Kaplan, I support Ranking Member Pallone's bill to 
provide additional funds so that the broadcasters have--they 
are held harmless during the repack process. But I would ask 
you, you have done this a bit already, but can you elaborate on 
what the broadcasters need to ensure the smoothest repack 
possible and to ensure that viewers are not left in the dark 
for any period of time after the repack?
    Mr. Kaplan. Sure. We need two things, which is money and 
time.
    And in terms of money, it is to be fully reimbursed, 
because broadcasters, as I said, today are spending that money. 
They are putting in the orders; they need to do it. We have 
heard testimony about exactly the steps that are necessary to 
do these tower climbs, to have the antennas, transmitters, 
those types of things that are critical.
    Mr. Welch. So Mr. Doyle asked everybody whether there is 
enough money, and everybody, with one abstention, said there 
isn't. What are we talking about, in terms of money? And can 
you explain how you have come to a conclusion about what is 
needed?
    Mr. Kaplan. Sure. Well, we could look to the FCC. So we 
have all submitted--broadcasters submitted initial estimates 
that the FCC has looked through, and that came to over $2.1 
billion. Also, we have heard today from members issues about 
radio, low-power television, and those things are enormously 
important for the ecosystem as well.
    So, you know, we are in the neighborhood. We know it is 
going to be at least $2.1 billion, and it is probably going to 
go up a little bit, plus money for some other entities that are 
casualties in the process.
    Mr. Welch. Thanks, Mr. Kaplan.
    Mr. Bergmann, can you share with the committee what the 
spectrum will mean for our rural constituents. I mean, that is 
a huge part of America. It is supposed to be, as you know, 
under the original Telecommunications Act, getting the same 
service as urban areas. We are not doing that, and it is really 
hollowing out the opportunity for rural America, where if 
people are going to start jobs, entrepreneurs are going to 
come--and a lot of people want to--I know this in Vermont--
because of what they see as a quality of life that is 
different, they can't do it, as you well know, unless they have 
urban-style speeds.
    So can you talk about what the spectrum can do?
    Mr. Bergmann. Sure. Thanks, Congressman Welch. And I 
certainly appreciate your and this committee's attention to 
making sure that rural America is a full participant in 
wireless. And I think there are a couple components of it.
    One we were talking about just a couple minutes ago is a 
lifeline, right? And you mentioned this. The ability to reach 
911 in times of need is really critical in rural areas, right? 
When you are at sparsely populated communities, winding roads, 
that ability to reach 911 is absolutely critical.
    The other piece is an economic opportunity, right, a growth 
opportunity, the ability to work where you want, to be creative 
where you want to be. It is something that wireless is really 
unleashing.
    When I think about the spectrum inventory, I think about 
this spectrum, the 600 megahertz spectrum--and this is like the 
long-distance runner, right? This is the spectrum that can 
cover miles and miles. It has great propagation 
characteristics. And I think what you see for rural America, it 
is happening today, right? T-Mobile announced in Cheyenne, 
Wyoming, and in Maine first. It is a little bit unusual 
compared to where we normally see services first rolled out.
    So this repack, this process is really key to getting the 
services out.
    Mr. Welch. All right. Thank you. I don't have much more 
time, and I just want to let Ms. Murphy Thompson comment on 
that same question as well. But thank you.
    Ms. Murphy Thompson. Sure. And let me just thank you for 
all the work you have done to help promote rural broadband, 
both for your constituents and all of CCA members. It is in our 
DNA. And I know right now ``rural'' is a big buzzword, but it 
is something we have been working on for a long time.
    And this spectrum, as Mr. Bergmann said, is critical to all 
sorts of new technologies in order to connect rural America, 
not leave them behind in these next-generation technologies. 
And, you know, we would ask continued assistance from Congress 
to help bridge this digital divide.
    Mr. Welch. OK. Thank you very much.
    Madam Chair, I yield back. Thank you.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Flores, 5 minutes.
    Mr. Flores. Thank you, Madam Chair.
    And I thank the panel. This has been a great hearing so 
far.
    Unfortunately, there were some unintended consequences in 
the repacking. Mr. Bilirakis addressed one of those, with the 
low-power TV and translators.
    Another one is that the industry, the broadcast industry, 
shares towers with AM stations, FM stations, and also with FM 
translators. And so those operators are also going to be 
impacted as the broadcaster, the TV broadcasters, go through 
the repacking process and changing transmitters and antennas 
and so forth.
    So to address this issue, yesterday Mr. Green and I 
introduced H.R. 3685, the Radio Consumer Protection Act. This 
bill establishes a similar fund for the narrow purpose of 
reimbursing radio stations during the repacking transition. It 
closes the unintended oversight that prevents radio stations 
from being left out of the process.
    And we have all seen the vital role that local radio 
stations play for millions of Americans that are faced with 
severe weather, such as Harvey and Irma, and natural disasters 
and other local emergencies. And it is at times like these that 
local radio can be a lifeline for the people we serve, 
especially when power and all the other communication services 
are down.
    So my questions are these: Mr. Kaplan, do you have an idea 
as to how many towers that the TV broadcast industry used or 
shared with AM/FM and FM translators?
    Mr. Kaplan. I do. And, first of all, thank you and 
Congressman Green for introducing that bill. It is a very 
important legislation.
    There are actually 678 TV towers that would share with FM 
stations.
    Mr. Flores. OK. And so my next question is, what is the 
impact on those radio stations as the TV stations start to do 
their modifications?
    Mr. Kaplan. It could have a significant impact on those 
stations. Because what happens is, when tower climbers go up to 
do the adjustments they need for the TV repack, the FM stations 
have to power down, you know, for safety reasons. And it all 
depends upon when those happen.
    During the DTV transition, it was less of a problem because 
we had far more time, so radio stations could organize that, 
you know, 2:00 a.m. To 5:00 a.m., and that was not a big deal. 
But with the tight timeline they are under now, unless they 
build auxiliary stations, they are going to be forced to, you 
know, power down during drive time or for weeks at a time.
    Mr. Flores. Well, your last comment there leads me to ask 
the question, are there any other unforeseen costs of the 
spectrum repacking on the radio industry that were not 
envisioned originally?
    Mr. Kaplan. Not at this time, but as days go by and things 
happen, we keep learning new things, which is why processes 
like these can be very difficult.
    Mr. Flores. OK. I would ask you to supplementally advise 
the committee as those come up, if you would.
    Mr. Kaplan. Will do.
    Mr. Flores. Mr. Bergmann, as I understand it, the wireless 
carriers who purchase the spectrum have to wait 39 months 
before they can begin to generate a return on the acquisition.
    And I appreciate that things in the wireless space move at 
a very fast pace. What does 39 months mean to the wireless 
industry? Do you have a way to quantify that in terms of 
revenues or lower rate of return, things of that nature?
    If you could do that quickly. I have a second question for 
you.
    Mr. Bergmann. Sure.
    So 39 months is an eternity in the wireless world. We 
reinvent ourselves every 5 to 10 years, building out entire new 
networks. T-Mobile recently acquired 700 megahertz spectrum, 
built out the country in 2 years. So that is a long, long time 
for us.
    Mr. Flores. So I guess we could have seventh generation out 
by the time that you get a chance to get a return on your 
investment. I am being facetious.
    Continuing with you, Mr. Bergmann, you made a reference to 
the evidence provided to the FCC that there are sufficient 
tower crews available to meet the repack deadline. The FCC says 
that.
    Can you expand on the nature of this evidence, and why is 
there so much conflicting information about whether or not 
there is enough time to complete the transition? Because Mr. 
Tracy has indicated otherwise, and some of our broadcast folks 
have said that, you know, they are worried about the tower 
resources.
    Mr. Bergmann. Sure.
    So, you know, the FCC holds open processes and sought 
comment at a variety of different times about the 39-month 
timeline, about the particular, you know, the 10-phase project 
that I described for you, and had an opportunity to hear from 
all sides, from all interests, and considered a variety of 
different approaches. I think they were originally proposing 18 
months for the timeline; ultimately decided 39 months. That was 
challenged in court. The court upheld that 39-month timeline.
    And then the staff developed a transition plan that, again, 
breaks this challenging task into 10 different phases. And I 
think that is really important. So even as we think about the 
size of the challenge, remember, we are chunking it into 10 
different pieces so that we don't have to have a separate tower 
crew, antennas for all of those stations at the same time. We 
are building that timeline out over the 39 months.
    Mr. Flores. Thank you all for your responses.
    And I have exhausted my time. I yield back.
    Mr. Lance. [Presiding.] Thank you very much.
    The chair recognizes Mr. Costello.
    Mr. Costello. Thank you.
    I read all of the testimony and looked over a bunch of 
various questions I was going to ask, and I think for the most 
part we have touched on everything. That is the blessing and 
the curse of being last, sitting at the end. I wanted to get a 
couple things on the record, though, that I think are relevant 
for a couple different reasons.
    Let me just start, as cochair of the Public Broadcasting 
Caucus, Mr. Butler, just to give you an opportunity to explain 
how this repacking may be a bit different for the public 
broadcasting vis--vis others.
    Mr. Butler. Yes, sir. Thank you.
    And thanks, first of all, for being the cochair of our 
Public Broadcasting Caucus. We are honored to have you in that 
leadership position.
    As has been said and as Mr. Bergmann was just touching on, 
this is not really a 39-month transition. For lots of our 
stations, this is a much shorter transition than that. Fourteen 
of our public television stations have to make this transition 
within the next year almost, November 30 of 2018.
    And then there is a cascading effect. The next phase begins 
the next day. And so the last phase, which will take us up to 
July of 2020, we only have 14 stations left at that point to 
get repacked. And so 135 of our stations alone are going to 
have to repack well before that 39-month deadline.
    Mr. Costello. Why is that?
    Mr. Butler. Because of the phasing in that the FCC has 
created for this process.
    And so I am sorry Congresswoman Eshoo is not here for me to 
be able to clarify that. Thirty-nine months is a long time, 
but, you know, a year is not a long time. And this is a 
cascading effect that is going to have a very serious effect on 
public broadcasters, in particular, because of the difficulty 
we have in attracting capital for such purposes.
    Mr. Costello. Thank you.
    Mr. Kaplan, in your written testimony, I want to read a 
paragraph, a couple sentences, give you an opportunity to 
respond, and any others, to just unwind this a little bit, both 
for my understanding technically, which I think I know the 
answer to, as well as what some of the unforeseen implications 
may be and how they may have to be addressed, be it through the 
waiver process or otherwise.
    ``The repack must take into account the costs and need for 
coordination associated with TV and radio stations which 
themselves were not repacked, but, which due to their proximity 
to repacked TV stations, must reduce power or transmit from an 
alternate facility for some period of time. These stations' 
viewers and listeners should not be dismissed as collateral 
damage solely because the FCC's original repacking plan did not 
take them into consideration.''
    Why due to their proximity to repacked TV stations must 
they reduce power or transmit? I think we know the answer to 
that, but if you could put that on the record.
    And then secondly, can you discuss some of this collateral 
damage and how we may need to go about addressing it or be 
sensitive to it?
    Mr. Kaplan. Great. Thank you for the question.
    I think this gets back to Congressman Flores' question 
earlier----
    Mr. Costello. Yes.
    Mr. Kaplan [continuing], Which is that radio stations that 
share--and we have almost 700--that share towers with repacked 
TV stations aren't just going to continue to operate business-
as-usual. When those changes are made to the towers, the FM 
radio stations will have to power down, go off the air. If they 
don't have an auxiliary facility to accommodate that, they are 
literally going to be, you know, off the air. You will get 
static. You won't hear your radio station. And that is for 
safety reasons. So that is critical that that is addressed.
    And it can be done in two ways. Money is critical, because 
if you have the ability to build an auxiliary station, then 
that can solve some of the problem. And time and flexibility, 
you said at the end of your remarks, I think that was exactly 
right, which is to be sensitive to.
    I think the issue to be sensitive to is the rush to 
transition, which we are all going to try and meet each and 
every deadline, does put pressure on those kind of situations. 
Because whereas you could power down at night during the DTV 
transition because that is when the work could be done, we 
don't have to luxury if we are going to meet each of the 10 
phases.
    Mr. Costello. Right.
    Mr. Butler, the APTS partnership with the wireless industry 
to conduct a pilot project on spectrum sharing, just share your 
thoughts on how it was successful, how it may help your 
members, as well as any learning lessons.
    Mr. Butler. Yes, sir. Thank you.
    Among the most important lessons that we learned was the 
fact that we do have a substantial channel capacity, even in a 
channel-sharing arrangement, so that both a public station, for 
example, and a commercial station could run a full complement 
of channels that they wish to run simultaneously.
    We also learned that the dynamic nature of this sharing is 
very important and conducive to a successful channel-sharing 
arrangement. You know, as a non-technologist, I had gone in 
thinking, well, we get 50 percent of the spectrum and you get 
50 percent.
    Mr. Costello. Right.
    Mr. Butler. The fact is that it is dynamically shared, and 
whoever needs more at one given time can have it. And so our 
pilot program in southern California proved that, proved what 
kind of equipment we need----
    Mr. Costello. Maybe more agility in there than when----
    Mr. Butler. Exactly right. Yes, sir. So that was very 
important, and we are very much indebted to our friends at CTIA 
for helping us to do that.
    Mr. Costello. Very good. Thank you.
    My time has expired. I appreciate all of your testimony. I 
yield back.
    Mr. Lance. Thank you very much.
    The chair recognizes Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    And thanks to our panelists.
    This is a really, really important hearing. I represent a 
part of the country, Appalachia, that makes this such a 
critical issue. I have 34 stations that broadcast in my 
district that are moving to new stations in 5 separate phases.
    But I have also got that rural Appalachian district where I 
got a lot of carriers that have purchased new spectrum under 
the auction to help roll out broadband access and connectivity 
to a part of the country that is oftentimes long forgotten.
    So, from my perspective, we got to figure out a win-win 
solution to this situation where both sides come away winning.
    The broadcasters need to be able to successfully transmit 
without incurring undue cost or losing time. And in so many 
cases, they are the only communication that might be going out 
to a rural area, especially if you have bad weather or some 
kind of natural disaster come up. God forbid that we have 
something in Appalachia on the magnitude of Harvey or what 
might be coming up the coast with Irma now.
    And, also, the carriers need to be able to get a return on 
their investment and plan on how they are going to roll out 
these capabilities to Appalachia.
    So the hearing is very, very important, because I wanted to 
hear the update from you folks on the repacking and any 
anticipated challenges and issues dealing with any delay in the 
39 months.
    So, Mr. Kaplan, to you: In your opinion, what needs to be 
done now to ensure that broadcasters are able to successfully 
meet the FCC's repacking deadlines while still enabling the 
carriers who are propelling new broadband services into 
Appalachia to stay on schedule? What do we need to do now?
    Mr. Kaplan. Well, thank you, Congressman.
    And I cannot frame the issue any better than you did, which 
is, what is the win-win here? And there is a win-win here, 
which is why we are here, broadcasters, today to say we are not 
debating in Congress the 39-month deadline. That is there. We 
are working with it. We are doing the best we can. What we are 
trying to find is that win-win.
    And so what we need to do is two things. One is--and it 
seems like everyone is in agreement--the money to ensure that 
broadcasters are made whole, which was the original intention 
of the Spectrum Act. And the second thing is that safety net 
for stations who cannot move due to circumstances beyond their 
control. And right now the FCC's rules don't allow for that.
    So that is what we are looking for. The aggressive 
deadlines are in place, so that is good, to your point about 
rolling out wireless services, getting them out to the people 
of Appalachia. That is critical. We have those deadlines, and I 
cannot tell you how seriously broadcasters are taking them. The 
planning has actually exceeded my expectations, having worked 
on this issue for quite some time.
    And so I think, with the money and then the safety valve, 
not a change in the 39 months, the safety valve, this is 
something we all should be able to come together on, and then 
we can move forward and meet those deadlines.
    Mr. Johnson. Well, the folks that I have talked to on both 
sides of the fence, both the broadcasters that I have met with 
in my district in Ohio--and, by the way, not all of those 
broadcasters are in Ohio. If you look at my district, half of 
them are in West Virginia and Kentucky. So, we are all over the 
place. And then the carriers. What I am impressed with is both 
sides being willing to be a part of the solution and everybody 
acknowledging that we need a win-win here.
    So, I hate to punt the ball over to the FCC, but I think 
they need to figure out how we are going to solve this problem. 
And I am sure, knowing Chairman Pai and the new regime at the 
FCC, I know they are taking this very seriously, because his 
wife is not too far from my district. I think, in fact, she may 
be on the northern end of my district. That is where she is 
from. So he gets the Appalachian issue. So I am hopeful.
    I probably did more talking than asking questions, but, Mr. 
Chairman, I yield back. Thank you for your attention.
    Mr. Lance. Thank you very much, Mr. Johnson.
    Seeing there are no further members wishing to ask 
questions for the panel, I thank all of our witnesses for being 
here today.
    Before we conclude, I ask unanimous consent to enter the 
following letters into the record: a letter from Electronics 
Research, Incorporated; a letter from the LPTV Spectrum Rights 
Coalition; a T-Mobile press release from Ms. Murphy Thompson; 
and an op-ed offered by Mr. Long.
    [The information appears at the conclusion of the hearing.]
    Mr. Lance. Pursuant to committee rules, I remind members 
that they have 10 business days to submit additional questions 
for the record. And I ask that witnesses submit their responses 
within 10 business days upon receipt of the questions.
    Seeing no further business before the subcommittee today, 
without objection, the subcommittee is adjourned.
    [Whereupon, at 12:35 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
   
   
   
   
   
   
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
   
   
   
   
   
   
   
                           [all]
                                 
                                 
                                 
                                 
</pre></body></html>
